<html>
<title> - CORRUPTION, GLOBAL MAGNITSKY, AND MODERN SLAVERY: A REVIEW OF HUMAN RIGHTS AROUND THE WORLD</title>
<body><pre>[Senate Hearing 114-796]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-796

  CORRUPTION, GLOBAL MAGNITSKY, AND MODERN SLAVERY: A REVIEW OF HUMAN 
                        RIGHTS AROUND THE WORLD

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-842 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>       


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     3
Hon. Tomasz P. Malinowski, Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7
Sarah Margon, Washington Director, Human Rights Watch, 
  Washington, DC.................................................    15
    Prepared statement...........................................    17
Mark Lagon, President, Freedom House, Washington, DC.............    20
    Prepared statement...........................................    22

              Additional Material Submitted for the Record

Responses of Dr. Mark Lagon to Questions Submitted by Senator Bob 
  Corker.........................................................    35
Responses of Assistant Secretary Tomasz P. Malinowski to 
  Questions 
  Submitted by Senator Bob Corker................................    36
Responses of Assistant Secretary Tomasz P. Malinowski to 
  Questions 
  Submitted by Senator Rand Paul.................................    38
Responses of Assistant Secretary Tomasz P. Malinowski to 
  Questions 
  Submitted by Senator Robert Menendez...........................    39
Letter Submitted by Senator Robert Menendez......................    42
Article Submitted by Senator Robert Menendez.....................    45

                                 (iii)

  

 
  CORRUPTION, GLOBAL MAGNITSKY, AND MODERN SLAVERY: A REVIEW OF HUMAN 
                        RIGHTS AROUND THE WORLD

                              ----------                              


                        THURSDAY, JULY 16, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Gardner, Cardin, Menendez, and 
Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Foreign Relations Committee will come to 
order.
    I want to say in advance, we have got about seven votes 
that are coming up in about 40 minutes. And, with the approval 
of our ranking member and other members, I think what we may 
do, because that is probably too long of a period to have a 
recess, I would think, is that we just move back and forth and 
alternate chairmans and ranking members. We may have to 
substitute others to keep this going. But, we certainly know 
the importance of this hearing.
    I very much want to thank our ranking member, Senator 
Menendez, and others for their tremendous efforts in this 
regard, along with Senator McCain. I want to make sure I am in 
the right place, here.
    As Americans, we believe our government should secure and 
do--and not do harm to our rights. What this really means is 
that we believe in the rule of law. Where the rule of law is 
absent or weak, we know that we can expect to see governments, 
groups, and individuals violating the rights of others. Where 
societal norms have broken down, you are not all surprised to 
see the worst of human nature take over. And we do not have to 
look too far around the world to find examples of how 
corruption distorts economics and fuels social conflict, and 
how it robs citizens of opportunity and dignity.
    With similarly devastating effect for security and 
stability throughout the world, human rights abuses continue to 
manifest themselves in various forms, from disenfranchisement 
to unlawful imprisonment, torture, and even extermination. 
Yesterday, the ranking member and I were over at a presentation 
by the Holocaust Museum depicting a young man named Caesar who 
had basically chronicled what was happening in prisons in 
Syria. It offends even the most basic human sensibilities. And 
to know that that is happening right now as we are sitting here 
in this hearing, that people are being tortured in the most 
crass ways--ways that I think people never imagined could take 
place in this time. So, I very much, again, appreciate our 
ranking member's pursuit and certainly his impassioned comments 
yesterday.
    The world continues to look at the United States to defend 
basic freedoms and the rule of law when attacked. Furthering 
the cause for democratic governance and rule-based economic 
systems also happens to benefit us here at home. Respect for 
individual rights not only defines us as Americans, but it is 
embedded in our foreign affairs laws by requiring the State 
Department's annual human rights report and human rights 
vetting for military training and creating authority to support 
civil society and the rule of law through foreign assistance.
    That certainly does not mean that we do not struggle to 
find the right balance between our concerns over human rights 
and competing interests. There is an additional balance to be 
struck between what we would like to see happen on the human 
rights front and the reality of how much leverage or influence 
we actually have to achieve these goals.
    Arguably, the human rights landscape changed over the past 
few years. After the end of the cold war, our view of universal 
human rights and political freedom was dominant. But today, 
major international players simply do not accept these views 
and have not embraced the rule of law. Countries like Russia 
and China, for example. Instead, they have used law to 
criminalize dissent and isolate dissenters. Terrorists and 
criminal nonstate actors also carry out unspeakable human 
rights violations.
    In addition, modern slavery violates the most fundamental 
human rights. As many as 27 million men and women, especially 
women and children, are held in conditions of slavery. And I am 
proud that this committee passed out, on a unanimous vote, a 
bill that it appears may benefit from appropriations and begin 
a process where the United States takes an even stronger lead 
in this issue. These victims are overwhelmingly poor and 
vulnerable, living without the protections of the rule of law. 
This reality should call us to action to work to deepen our 
partnership with governments and civil society globally who are 
willing to work to eliminate modern slavery.
    I appreciate this committee for voting out the legislation 
on a unanimous basis, as I mentioned. I hope that our witnesses 
today will help us explore these issues.
    I would just point out, for the benefit of members, that 
questions about human trafficking and modern slavery are best 
directed at our second panel, since those issues are not 
directly within the purview of Assistant Secretary Malinowski 
at the State Department.
    And with that, I recognize our distinguished ranking 
member, Senator Cardin, for opening comments.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, first, thank you so 
much, not just for convening this hearing, but for championing 
human rights. This committee has a very proud record of 
advancing basic rights. The trafficking legislation that you 
referred to, your initiative, is very important. The United 
States has been the global leader in fighting modern-day 
slavery. And we thank you very much for your commitment to 
strengthen our position so that we can strengthen the resolve 
internationally against human trafficking.
    During the State Department reauthorization discussions 
that we had, we included many provisions that strengthen basic 
human rights as part of our foreign policy objectives, 
including requiring our State Department to assess the status 
of corruption globally. That is another area that this 
committee advanced. There have been many, many, many examples 
of this committee advancing human rights. Particularly--just 
recently, we passed legislation that says the State Department 
should accumulate the information on war crimes committed by 
the Assad regime so that we can hold them accountable. And the 
Senate agreed with our position on accountability for war 
crimes in Syria.
    So, we have a strong track record. I am particularly proud 
of the Magnitsky Human Rights Accountability Act that was 
passed by this committee and enacted into law in the last 
Congress, and that we have set up a way to hold those who were 
responsible for gross violations of human rights accountable.
    As I said yesterday, Sergei Magnitsky was not the first 
Russian to be incarcerated for no reason, tortured and killed, 
but he is one that we knew about. And due to the courage of 
Bill Browder, that information became public and we took action 
to let the world know that we will stand by those who stand up 
against corruption, and we will help. And we passed the 
Magnitsky Accountability Act. Many said, Why are we doing this? 
Why do we want to create this type of a challenge in our 
relationship with Russia? The United States is strongest when 
we not only get engaged, but we get engaged and stand by our 
principles. And we were successful in getting that legislation 
done.
    As a result, dozens of people have been sanctioned, many 
other countries have also taken action to say that they will 
join us in our crusade against the human rights violators, and 
we are seeing a different attitude. And, quite frankly, lives 
have been saved, and people have been encouraged, and change is 
taking place.
    So, this hearing, I think, gives us a chance to focus on 
what we can do to strengthen that. One effort will be to change 
the Magnitsky Human Rights Accountability Act to the Global 
Magnitsky Human Rights Accountability Act so that it will apply 
to all countries, not just Russia. I will just remind the 
members of this committee, that the legislation was changed, in 
conference, to be restricted solely to Russia as an 
accommodation to the House, an accommodation to the 
administration, in order to get the bill enacted. I think now 
there is general consensus that this should be done globally. 
Quite frankly, the tools are being used by the administration 
today, beyond Russia, in other countries. What this does is 
legislate that, giving the administration--any administration--
the tools to use, but also allowing for congressional 
committees to initiate requests to the administration to review 
individuals.
    This is a strong bipartisan bill. You already acknowledged 
Senator McCain. Senator McCain has been a great leader on this 
crusade for human rights. I want to acknowledge other 
cosponsors: Senators Shaheen, Rubio, Durbin, Wicker, Markey, 
Kirk, Blumenthal, and Cruz. We have all sides of the political 
spectrums. We come together on fighting for human rights 
globally.
    And lastly, Mr. Chairman, let me just acknowledge Tom 
Malinowski and his incredible career, both in government and 
outside of government, crusading for human rights. He makes us 
all proud. He has taken on not only other governments and other 
people; he takes on, at times, the State Department, which we 
appreciate, and he is here to testify, which we very much 
appreciate.
    I also want to acknowledge Mark Lagon, from the Freedom 
House--Freedom House has done incredible work in regards to 
human rights--and Sarah Margon, from the Human Rights Watch.
    The Chairman. Thank you, Senator. And again, thanks for 
your tremendous leadership on this issue. I know this is one 
that you spent a great part of your career working on, and I 
thank you for that.
    Our first witness of the first panel today is Assistant 
Secretary of State for Democracy, Human Rights, and Labor Tom 
Malinowski. Previously, he was Washington Director for Human 
Rights Watch from 1998 to 2001. He served as Senior Director on 
the National Security Council at the White House from 1994 to 
1998. He was a speechwriter for Secretaries Warren Christopher 
and Madeleine Albright, and a member of the Policy Planning 
Staff at the Department of State.
    It is good to have you before our committee. I first met 
Tom, having an adult beverage in Munich, I think, a few years 
ago. It is good to have you here.
    I also want to welcome our other witnesses. Professor Mark 
Lagon is the president of the Freedom House. Previously, he was 
Global Politics and Security Chair at the Master of Science and 
Foreign Policy Program at Georgetown University. He was 
executive director and CEO of the leading anti-human-
trafficking nonprofit Polaris Project until January 2009. He 
also directed the Office of Monitor and Combat Trafficking in 
Persons at the U.S. Department of State. He is also a staff 
alumnus to the Foreign Relations Committee.
    We welcome you back, Mark, and thank you for your great 
service here.
    Ms. Sarah Margon is the Washington director at Human Rights 
Watch. Prior to joining Human Rights Watch, she was associate 
director of Sustainable Security and Peacebuilding at the 
Center for American Progress. She also served as senior foreign 
policy advisor to Senator Russ Feingold, and is also a staff 
alumni of the Foreign Relations Committee, where she was staff 
director to the Subcommittee on African Affairs.
    We also welcome you back, and know that both of you will be 
treated exceptionally well. We thank you for being here today.
    I would remind all of you that, if you would--you all have 
done this before--keep your comments to about 5 minutes. Your 
written comments will be made part of the record.
    And we apologize for the votes that are getting ready to 
take place, but we thank you so much for being here to help us 
with this issue.
    And, with that, Tom, why do you not go ahead.

 STATEMENT OF HON. TOMASZ P. MALINOWSKI, ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Malinowski. Thank you so much, Mr. Chairman, Senator 
Cardin. Thanks for holding this hearing. Thanks for placing 
such a high priority on these important bipartisan issues.
    And let me also thank you for giving me such a small 
subject to try to summarize in 5 minutes. [Laughter.]
    I am going to--I will try. I may----
    The Chairman. I will tell you what: Take 6, if you wish.
    Mr. Malinowski. Thank you. [Laughter.]
    So, let me give you a general overview of what I see as the 
big opportunities and challenges, and then you can have at me 
on whatever you like.
    So, you know, as you know, my work forces me to focus on 
the worst and most depressing things that are happening around 
the world. I often start, when I talk about these things, by 
trying to remind folks that there is a lot of good stuff 
happening in many parts of the world. A lot of people are still 
fighting the fight for human rights and for freedom, and they 
are winning. When I look back on the events of the last year, I 
think about the success of the Maidan movement in the Ukraine, 
and all the work those folks are still doing to try to hold 
their country to the path that they have chosen. I think about 
Afghanistan and Indonesia and the elections that took place 
there, where, amongst all the choices people had, they went for 
the candidates who had the most progressive human-rights-
oriented visions for the future of their country. I think about 
this remarkable movement for term limits that has started and 
spread throughout Africa; the more recent elections in Nigeria 
and Sri Lanka, where people risked so much to assert the right 
to change their leaders; about the opportunities I think we 
still have in Burma, and the new opportunities that are 
emerging in Vietnam. And in all of these cases, the United 
States, we, have played, I think, a very, very central role in 
supporting people who are fighting for their rights. And that 
ought to give us, not just some hope for the future, but 
confidence in ourselves, a very, very important quality.
    Now, all that said, the global movement for human rights 
has run into some pretty significant headwinds, and there are 
days when it feels to me like the number and intensity of the 
crises we face is about as great as at any point in recent 
history. So, let me mention what I think are three of the 
biggest overarching challenges we face.
    The first is the--obviously, the brutality of nonstate 
actors like Daesh and Boko Haram and al-Shabaab and the Taliban 
groups that have launched systematically planned efforts to 
target whole groups of people because of their ethnicity or 
faith, and propagated an ideology that justifies, even 
celebrates, the killing and enslavement of people. We have to 
defeat these groups, and that necessarily involves coercive 
measures. But, at the same time, we have to remember what they 
came from. They did not come from nothing. Many cases--
certainly true in Nigeria and Syria and Iraq--extremist groups 
came to the fore driven by atrocities and human rights abuses 
and corruption committed by governments. And so, our response 
to these groups also has to be consistent with the values of 
promoting human rights.
    And that leads me to the second overarching challenge that 
I think we face daily around the world, and that is the 
misapplication of counterterrorism and counterterrorism laws to 
stifle legitimate political dissent. When a Saudi 
counterterrorism court sentences a blogger to 1,000 lashes, 
when Egypt uses the threat of terrorism to justify the 
prosecution of nonviolent opposition, when China prosecutes 
Uighur scholars who promote moderation and reconciliation, it 
is not just a blow to human rights, it is a setback to 
effective counterterrorism. And so, a great part of our 
engagement with partners in our coalitions against terrorism is 
about delivering the message that, when the paths to nonviolent 
change are blocked, more and more people who have grievances 
are going to fall under the sway of extremist groups.
    Now, the third big challenge--and you mentioned this, Mr. 
Chairman--is that, for the first time in many, many years, we 
are facing a serious challenge to universal norms of human 
rights from two of the world's great powers: Russia and China. 
I think it is important, in the case of Russia, for example, to 
recognize that the intervention in Ukraine that we have seen is 
profoundly related to President Putin's increasingly harsh 
crackdown domestically, which has been building since 2011, 
when he faced those first effective protests against his rule. 
You have seen, of course, the progression, the laws labeling 
NGOs as foreign agents or undesirable foreign organizations, 
the complete lack of progress and accountability for cases like 
Sergei Magnitsky, the murder of opposition leaders, and so 
forth.
    And this insecurity at home has increasingly led the 
Kremlin to view the assertion of a universal norm of human 
rights and democracy by governments, by civil society groups 
all around the world, as a threat to its interests. And so, 
when a democratic experiment arose in Ukraine, Russia acted 
against a sovereign state to stop it, leading not just to a 
human rights crisis, but to a threat to global order.
    And in China, we are also seeing, in some ways, a very 
similar increasingly assertive set of measures to restrict 
civil society and to challenge the legitimacy of global norms 
that uphold the rights of civil society. In recent days, we 
have seen over 100 lawyers detained in China who are defending 
the rights of others. We have seen the passage or proposal of 
laws on NGOs, on national security, that will empower the 
government to round up, not just human rights groups, but to 
restrict the activities of everything from chambers of commerce 
to groups that do student exchanges, work on environmental 
issues, everything that is not controlled by the government, 
all justified by an increasingly assertive official discourse 
of resisting what they call ``cultural infiltration'' from the 
United States and the international community. And, 
unfortunately, we see this trend in a lot of other smaller 
countries that are able to point to the example of Russia and 
China to justify what they are doing.
    Now, all of this is very bad news. I would suggest that the 
global crackdown on civil society that we are seeing is, in 
part, a response to the effectiveness and success of these 
movements over the last several years. So, in a way, it is no 
surprise that authoritarian regimes are pushing back. What it 
means for us is, we have to redouble our vigilance. So, how do 
we do that? We have a lot of tools. We have public and private 
diplomacy. We can mobilize other countries through the U.N. and 
other international organizations. We can put great emphasis on 
issues like corruption. And that is something we are doing, 
because we know, not only is corruption linked to bad 
governance, to human rights abuses everywhere in the world, it 
is also one of the most important political vulnerabilities of 
regimes like Putin's, for example, and others, because it is 
the one thing they cannot justify at home or abroad.
    And finally, we have the option of imposing targeted 
sanctions, particularly targeted financial sanctions. And, as 
you both know, this is an option that I have supported in many 
cases, it is one that we have employed as a government in a 
number of cases, it can be effective, but it is not always the 
right answer. It is not something that we can uniformly do, 
from the standpoint of effectiveness, in every single country 
that faces human rights challenges. And that is why I think we 
need the flexibility to work with you to determine where that 
tool is likely to do more good than harm.
    So, Senator Cardin, you mentioned the Global Magnitsky Act. 
I want to, first of all, commend you and thank you for all of 
the work that you have done on the issues that we have been 
discussing over the years, including the work on the Act. And 
we very much appreciate your efforts to address some of our 
concerns in preserving that important flexibility to be able to 
impose sanctions where it is going to be effective and 
appropriate. And we very much look forward to working with you, 
with the committee, on this and other important legislation as 
you move forward.
    Thank you very much.
    [The prepared statement of Mr. Malinowski follows:]

     Prepared Statement of Assistant Secretary Tomasz P. Malinowski

    Thank you, Mr. Chairman and Senator Cardin, for holding this 
important hearing. You've given us a broad subject, so there are any 
number of issues I could touch on, but let me begin by giving you a 
general overview of the challenges and opportunities I see right now in 
our efforts to promote human rights around the world.
    As you know, we recently released our 2014 Human Rights Reports, 
which gave us a chance to take stock of human rights conditions 
worldwide. We focus in those reports on what is going wrong in all the 
countries they examine, and we must, since the whole point of our human 
rights diplomacy is to help right those wrongs. But we also recognized 
what is going right--the achievements that people working for democracy 
and human rights have made in the last year that give us hope, even in 
this difficult period. In Ukraine, peaceful protests helped citizens 
reclaim their country's traditions of political choice and freedom of 
expression. In Afghanistan and Indonesia, millions of people went to 
the polls, and chose among all the candidates before them leaders with 
the most progressive, democratic vision for the future of their 
country. In Burkina Faso, people stood up to uphold their constitution, 
part of a larger movement for term limits in Africa and beyond. In 
Nigeria, voters braved violence, and in Sri Lanka they were galvanized 
by corruption and nepotism, to affirm their ability to choose and 
change their leaders. In each of these cases, the United States stood 
up for those seeking human rights, often over many years in the face of 
significant setbacks. These examples, therefore, should give us not 
just hope for progress in the world but confidence in our ability to 
advance it.
    That said, the global movement for human rights has also run into 
powerful headwinds in many places, and on some days it feels like the 
number and intensity of crises we face are greater than at any time I 
can remember.
    The first challenge I want to highlight is the brutality of 
nonstate actors, from the Taliban and al-Shabaab to Boko Haram and 
Daesh. We are all too familiar with the litany of crimes these 
terrorists have committed: murder, torture, rape, religious 
persecution, slavery, and more. Daesh, in particular, stands out for 
having launched systematically planned and organized efforts to attack 
whole groups of people because of their ethnicity or faith, and for 
propagating an ideology that justifies, and even celebrates, the 
killing of civilians and enslavement of women. As Secretary Kerry has 
made clear, the international community must confront and to defeat 
these groups, and coercive measures are obviously an essential part of 
that effort.
    At the same time, we must remember that these groups did not emerge 
from nothing. Violent extremism in Nigeria was exacerbated by the 
actions--and in some ways the inaction--of the previous government. In 
Syria, Daesh's rise was fueled by Assad's horrific abuses against his 
own people. In Iraq, Daesh took hold because many in the Sunni 
community felt marginalized, felt that legitimate grievances were being 
ignored by the government in Baghdad. So these violent extremist groups 
are not only a primary cause of human rights abuses; they are also a 
product of human rights abuses.
    As President Obama noted in the 2015 National Security Strategy, 
many of our biggest national security challenges come from the biggest 
human rights failures. When governments violate the rights of their 
citizens and ignore calls for accountability, inclusivity, rule of law, 
decent work, and fundamental freedoms, they fuel instability and 
violence.
    So our response to terrorist groups must be consistent with human 
rights, too, which leads me to a second urgent challenge we face around 
the world today--the misapplication of counterterrorism laws to stifle 
criticism, crush dissent, and restrict the space for civil society. For 
example, in Saudi Arabia, peaceful Internet activist Raif Badawi was 
sentenced to 10 years in prison and 1,000 lashes by the Ministry of 
Interior's Specialized Criminal Court, a court originally set up to try 
terrorists. Egypt has used a real threat of terrorism to justify the 
prosecution of nonviolent opposition figures, human rights activists, 
and demonstrators. Bahrain has a legitimate interest in protecting its 
people against violent groups, yet its government has focused much of 
its energy on prosecuting peaceful critics, including this year, 
opposition leader Sheikh Ali Salman. Last year in China, Ilham Tohti, a 
Uighur scholar who promoted moderation and reconciliation among ethnic 
groups, was sentenced to life in prison.
    Terrorism doesn't give authorities a license to use violence 
indiscriminately, and it's not a legitimate excuse to lock up political 
opponents, restrict civil society, or pin a false label on activists 
who are engaged in peaceful dissent. Such measures are not just wrong; 
they're not just violations of human rights. They're also 
counterproductive to our security goals; they play directly into the 
hands of terrorists.
    As President Obama said at the Countering Violent Extremism Summit 
in February, ``When people are oppressed and human rights are denied . 
. . when dissent is silenced, it feeds violent extremism. When peaceful 
democratic change is impossible, it feeds into terrorist propaganda 
that violence is the only answer available.'' That's why a great part 
of our engagement with partners in the coalition against Daesh, and 
with countries facing this kind of threat is about delivering the 
message that when the paths to nonviolent change are shut down, more 
and more people who have grievances will fall under the sway of 
extremists and the false promises they offer. It's why our security 
cooperation with these countries will remain bound by restrictions that 
promote respect for human rights and encourage a focus on violent 
extremism rather than peaceful dissent. We do this for our own 
security, as well as to advance the human rights and dignity of people 
around the world.
    The third challenge I want to put before you today is this--for the 
first time in many years, we are facing a serious challenge to 
universal norms of human rights from two of the world's great powers.
    Russia's intervention in Ukraine threatens to upend an 
international order that has kept the peace in Europe since World War 
II. We have responded accordingly, and appropriately. But we should 
also remember that Putin's actions in Ukraine are profoundly related to 
his increasingly harsh crackdown on dissent within Russia since 2011, 
when he saw widespread overwhelmingly peaceful public protests as a 
threat to his power. Seventy-six of the country's most respected NGOs 
now are now listed as ``foreign agents'' and a new law banning 
``undesirable foreign organizations'' will intensify the government's 
suppression of Russian civil society. These laws have been used not 
just against human rights groups, but against any NGO that receives 
foreign funding, from organizations that finance high school science 
camps, to those supporting the mothers of soldiers; recently, 
organizations have been targeted simply because their staff spoke at 
conferences on foreign soil. At the same time, there has been no 
progress in identifying those responsible for the murders of 
journalists, human rights defenders, and with the killing of Boris 
Nemtsov, leaders of the political opposition.
    The Kremlin appears to see the assertion of a universal norm of 
human rights and democracy by governments and civil society groups 
around the world as a call to ``color revolutions'' and thus a threat 
to the regime. In Ukraine Russia has acted against a sovereign state 
where a successful democratic transition might set a positive example 
for others. The result has been an occupation of Crimea and 
intervention in eastern Ukraine in which widespread human rights abuses 
have been committed. Meanwhile, Russia has used its veto in the U.N. 
Security Council to oppose the enforcement of human rights norms around 
the world, blocking everything from efforts to hold accountable those 
responsible for atrocities in Syria to a commemoration of the genocide 
at Srebrenica in Bosnia.
    Sadly, in China, we are seeing increasingly assertive measures to 
restrict civil society and to challenge the legitimacy of universal 
human rights norms. In recent days, the Chinese Government has detained 
a large group of lawyers who had done nothing more than defend, the 
rights of others brought before the criminal justice system. The timing 
of these arrests, shortly after China's passage of a new National 
Security Law has heightened our concerns that China may seek to use 
legislation to commit human rights abuses and to restrict enjoyment of 
fundamental freedoms of expression, association, peaceful assembly, and 
religion.
    China's draft NGO and counterterrorism laws are similarly 
disturbing. They are broad, vaguely phrased laws that give officials 
considerable latitude to police civil society and suppress views that 
they perceive as being in any way threatening to Communist Party rule. 
As in Russia, the Chinese NGO law will allow the government to go after 
any and all foreign, and foreign supported, organizations, including 
groups involved in work as benign as student exchanges or environmental 
issues. And the Chinese Government justifies it with a new and 
disturbing official discourse that paints ``cultural infiltration'' 
from the United States and the international community as a threat. 
These developments could restrict foreign trade and investment in China 
and obstruct the Chinese people's interaction with the outside world, 
reversing a 36-year process of ``reform and opening'' to the outside 
world that has enriched both China and the international community. As 
we did during our recent Strategic and Economic Dialogue with China, we 
will continue to encourage China's leaders to weigh the costs to its 
citizens' well-being and productivity of blocking them from the ideas 
and information that spark and move the world forward. But that is what 
the Chinese Government appears to be determined to do.
    Unfortunately, other countries around the world, from Cambodia to 
Ethiopia to Azerbaijan, have sought to copy Russia and China's 
repressive examples, passing laws to stifle NGOs and restrict what 
their people can access on the Internet and other media. You might 
recall Hungarian Prime Minister Viktor Orban's speech last summer, 
declaring his intention to build an ``illiberal state'' modeled on the 
likes of Russia and China. When authoritarian leaders are challenged at 
home and abroad by demands for more inclusive and transparent 
government--demands that cite universal values and international law--
they find it convenient to point to an alternative model being 
displayed and promoted by influential world powers like Russia and 
China.
    I realize this is quite a dark outlook, but I do want to point out 
that one of the reasons for the recent wave of crackdowns on civil 
society is that civil society has become very effective. Crackdowns are 
a response to the success that global civil society has had in 
promoting human rights--success in raising the expectations of people 
in countries that have long resisted democratic change that they're 
entitled to the same fundamental freedoms as everyone else around the 
world. And that success is profoundly threatening to authoritarian 
regimes. So it's not a surprise to seem them pushing back. But the push 
back does, mean that we need to remain vigilant in our defense of 
universal values.
    There's no single approach to doing this. Different tools, in 
different combinations, are appropriate depending on the circumstances. 
But let me lay out some of the tools at hand.
    First, we always strive to address our concerns in our public and 
private diplomacy--even with countries with which we must do business 
on other issues.
    We work in the United Nations, in regional organizations, and other 
multilateral fora to strengthen and generate international support for 
compliance with human rights obligations.
    Related to this, one thing we increasingly have emphasized is the 
importance of fighting corruption in countries where there is clearly a 
confluence between graft and poor governance. Corruption is often the 
reason why authoritarian leaders seize and cling to power; but it is 
also often one of their greatest vulnerabilities--the abuse of power 
that generates the greatest domestic opposition and that they are least 
able to justify on the world stage. The United States is well-
positioned to lead a redoubled global effort to confront corruption. We 
were the first country to criminalize bribery by our companies 
overseas. We have led the creation of global standards and binding 
legal frameworks to prevent and combat graft, and to foster the 
international legal cooperation that is increasingly necessary. In the 
last few years, we have forged a consensus in the G20 to strengthen 
safeguards against the flow of illicit funds, including by cracking 
down on the use of anonymous shell companies. We are helping emerging 
democracies like Sri Lanka and Ukraine recover stolen assets, and where 
possible prosecuting those with links to foreign corruption in our 
courts. We are partnering with a number of African countries to address 
corruption and other sources of illicit finance there.
    At the same time, we use our assistance to partners around the 
world, including security assistance, to leverage improved respect for 
human rights. And finally, we have the option of using targeted 
measures, including targeted financial sanctions in certain contexts. 
They are an important tool in many cases. They enable us to impose 
costs on individuals responsible for certain human rights abuses 
without punishing entire countries or economies. They can show how 
seriously the United States takes these issues, while giving the 
victims of human rights abuses a sense that someone is standing up for 
them. And America's position in the international financial system 
gives us unique opportunities to employ such measures. But financial 
sanctions aren't the right answer in every situation, and our ability 
to employ this tool effectively would diminish if we employed it 
indiscriminately. That's why we believe we need the flexibility to 
determine, in consultation with Congress, when financial and other 
sanctions will do more good than harm.
    Senator Cardin, I want to commend you for all of the work you have 
done to combat global human rights violations, including your recent 
work on the Global Magnitsky Human Rights Accountability Act, which was 
reported out of this committee last year. We greatly appreciate your 
effort to address our concerns for preserving our flexibility in key 
areas and look forward to working with you and other members of the 
committee as this bill proceeds through the legislative process to 
ensure that it achieves common goals.

    The Chairman. Well, thank you very much for that testimony. 
And very much appreciate your efforts in all of the places that 
you have served.
    So, you talked about Russia--and let us just mention China, 
in particular--but also other countries. We had a situation 
come before us here recently, where we are dealing with China 
on a civil nuclear agreement, whereby we know that they are 
going to cheat and use that technology to help them in military 
activities. We know that is going to happen. And yet, you know, 
our country is entering into an agreement with them and--
because of the commercial interest that exists relative to us 
working with China on commercial issues. So, when it comes to 
this particular issue, human rights, talk to me about how we 
deal with the balance. My guess is, your greatest challenge at 
the State Department is that the State Department has multiple 
interests that it is trying to accommodate, and issues that 
they are trying to achieve, or movement. So, how do we balance 
that? To me, that is one of the greatest rubs that we have, 
relative to human rights issues, is that we have other 
equities, if you will, with governments that sometimes 
compromise our abilities.
    Mr. Malinowski. First, I think it is important to be 
completely honest about that. Of course we have other 
interests. And I would be--it would be silly of me to suggest 
that this is the only set of interests that the United States 
has in the world. I tend to resist the notion that our interest 
in promoting human rights, and our interest in protecting our 
security, our prosperity, is--that those interests are 
fundamentally at odds. I think sometimes we face short-term 
tradeoffs, where we may have to work with a particular country 
on something that is essential to our security right now. And, 
at times, that may lead us to calibrate our efforts on other 
important issues.
    In the long run--and this is the point I was making about 
counterterrorism--and not just the very long run, but in--
medium term--it is--I do not think it is possible for us to 
secure the broad range of our interests in the world unless we 
are also working with and empowering ordinary people in 
countries like Russia and China and Afghanistan and Indonesia, 
and so on, and so on. Most of our--and President Obama has made 
this clear; it is stated very plainly in our national security 
strategy--most of the most fundamental challenges to our 
national security around the world come from places where 
people's rights are not respected. And that is not a 
coincidence.
    So, that is the argument that I make. Even in the cases 
where we have short-term tradeoffs, there is no situation where 
we cannot stand up strongly and say what we think. In the case 
of China, we just had our strategic and economic dialogue here 
in Washington, and everybody involved, from Secretary Kerry on 
down, pressed extremely hard on issues like the NGO law, the 
arrest of lawyers, Tibet, Xinjiang--making the argument that I 
have just made, that these problems are related to many of our 
other concerns with China. And I think we find that, even if 
all we are doing is making statements, governments around the 
world are profoundly sensitive to what the United States says 
and does not say. That is been one of the interesting things 
that I have learned in this job, that even just what we say, 
what you say as a Congress, is heard very clearly around the 
world and is taken very, very seriously.
    So, there is always something that we can do, even in those 
situations.
    The Chairman. And if you would, just for our education, 
when you say ``empower groups,'' let us talk China for 
instance. One of our jobs is to empower groups. What are some 
of the most effective ways that we do that?
    Mr. Malinowski. There are--well, there are many different 
things that we can do. In some cases, we can provide direct 
support to civil society organizations that are advocating for 
universal human rights.
    The Chairman. And is that permissible under the leadership 
that exists in China right now?
    Mr. Malinowski. In some places, it is harder; in some 
places, it is easier. In some places, we are very careful about 
how we talk about what we do, because of the difficulties. We 
take our cue, of course, from those brave activists, 
themselves. There are countries where, for their own safety, 
for their own interests, they feel like they cannot work with 
outside governments or groups. So, that is one way.
    Speaking out on their behalf, frankly, is very, very 
important. I do not know how many times I have had 
conversations with activists in other countries who have simply 
said, ``Just speak out on our behalf. Remind us that we exist, 
that we are important, that we are not forgotten.'' Sometimes 
the targeted sanctions, where that is appropriate, are a good 
way of empowering people, because they feel, ``Somebody did 
something, somebody imposed a degree of accountability for what 
is being done to us.'' Wherever possible, we try to mobilize 
other countries. And increasingly, one of the things that my 
Bureau is doing is pooling funds with other countries that are 
dedicated to the same principles so that we are able to respond 
collectively to cries for help from civil society around the 
world.
    So, many different things that we can do. Are we doing 
enough? Never. We always face the challenge of doing more. And 
we will continue to do our best.
    The Chairman. I think that the way the Global Magnitsky 
bill is now drafted, the sanctions are permissive. They are not 
mandatory. Is that correct?
    ?????Senator Cardin.????? There is no required action by 
the administration to evaluate every human rights violator 
around the world, that is correct.
    The Chairman. I know that is something that is going to be 
subject of debate. My guess is, the administration would prefer 
not to see this enacted. I do not think it has necessarily been 
fond of this. But, if there were mandatory sanctions, just give 
us practical implications of that.
    Mr. Malinowski. That would be a significant problem. And 
that is the administration's position. It is my personal 
position. I do not think--first of all, I--as I mentioned, I do 
not think that targeted financial sanctions are the answer to 
every single human rights abuse and human rights abuser in the 
world. If we were mandated by law to do it, we would have to 
have the subjective process, where the lawyers would say, ``If 
there is evidence, then we have to act.''
    Number two, the resource implications of that would be just 
extraordinary, particularly for countries that have very small 
embassies, small posts, to have to be able to look at every 
single case that rises to the level to potentially the 
evidentiary standard in the legislation. So, I think that 
would, in a sense, break the bank.
    I think--again, very much appreciate the efforts that you 
have made, Senator Cardin, to make this about creating an 
authority to be able to target individuals around the world. 
Obviously, the Congress would retain its authority to impose--
to pass legislation that imposes sanctions on a variety of 
issues, variety of countries where you think it is appropriate. 
So, I think flexibility is preserved all around with that 
approach.
    We have not taken a position on the legislation, neither 
positive nor negative, but it is something that we very much 
look forward to working with you both on.
    The Chairman. Thank you very much.
    Senator Cardin.
    Senator Cardin. Well, Mr. Chairman, let me say, we have 
always intended, when the bill was originally introduced, the 
Magnitsky law, that it would give authority to the executive 
branch to be able to use these tools and a mechanism where the 
legislative branch could ask the executive branch to 
investigate specific cases, but no mandatory aspect. And we 
thought that was the best way to go, because, quite frankly, if 
it becomes mandatory--we were concerned about resources and 
costs and whether you really are going to diminish the 
importance of these tools. We want to go after the cases where 
they can have the most impact, not only on the individual, but 
on the circumstances within a country and those who are 
fighting for human rights. So, it was intentionally designed 
that way.
    And I want to thank Mr. Malinowski, because during the 
considerations of the bill, there were some clarifications, and 
we very much appreciate the input in making it clear our 
intentions on the legislation.
    I also just really want to underscore your point about 
putting a spotlight on issues. I have been involved in the 
Helsinki Commission since my first days in the House of 
Representatives, many years ago, before the fall of the Soviet 
Union. And the Helsinki Commission by visiting a country and 
talking to the activists was incredibly valuable in changing 
the human rights records within many of the countries under the 
Soviet domination. And it was one of the most important steps 
we took in order to liberate people and give them hope. And I 
think it contributed to the change and the end of the dominance 
of the Soviet Union. So, that was an important step.
    Mr. Malinowski, I will urge you to carefully engage on the 
Trans-Pacific Partnership. I say that because Congress has 
spoken. The TPA--Trade Promotional Authority--that we have 
given to the administration has as one of its principal 
negotiating objectives, which means the administration must act 
in this area--good governance and anticorruption. We recognize 
that there are times when you can make progress. And when 
countries want trade rights with the United States, they will 
change. And this is an opportunity for countries that have less 
than satisfactory progress on human rights to be able to do 
something positive. And we need champions.
    Secondly, let me point out that some of your colleagues in 
the State Department are working with the United Nations on the 
Sustainable Development Goals, the next set of goals that 
follow up on the Millennium Development Goals. There is a 
Sustainable Development Goal, Goal 16, that is being proposed 
that deals with good governance. This would be a major change. 
As you know, the Millennium Development Goals tried to deal 
with world poverty, with women's education, with infant 
survival, and we made tremendous progress. But, as you pointed 
out in your testimony, if you have a corrupt society, you are 
not going to be able to do everything you need to keep babies 
alive or to deal with poverty or to deal with education. It is 
corrosive to those accomplishments.
    So, we are able to at least propose it. And I would urge 
you also to get involved with your colleagues to make sure that 
we are successful in getting a good governance, anticorruption 
focus in the Sustainable Development Goals. We have to use 
every tool available. And that also includes the Global 
Magnitsky.
    And I just wanted to ask you a question. The administration 
did use targeted sanctions against seven individuals 
responsible for serious human rights violations in Venezuela. 
You were able to do that. What challenges did the 
administration face in the Venezuela case in being able to use 
targeted sanctions?
    Mr. Malinowski. I would say there are--I would point to 
several challenges. One--and I think it is appropriate that we 
face this challenge--the evidentiary standard is quite high. 
And my colleagues at the Treasury Department insist that, when 
we propose the use of targeted sanctions for conduct, such as 
human rights abuses, that there be evidence, that we have solid 
evidence, so that, when we go to the banks, we are not--you 
know, we do not expose ourselves to potential legal action and 
other measures by those whom we sanction. So, that is always 
the case.
    In the case of Venezuela, there was some blowback, as I am 
sure you saw, from the region, including from some of our 
allies and partners in the region, and from the Government of 
Venezuela itself, because, under the current law that grants us 
authority to impose these sanctions, IEPA, we have to--when we 
target individuals, we have to issue--the President has to 
issue an executive order that declares a state of national 
emergency with respect to that country. And the language of the 
executive order, the mandatory language, can--and was, in the 
case of Venezuela--be exploited to suggest that the United 
States is, in effect, going to war against that country. And 
so, the Government of Venezuela pointed to some of that 
language and said, you know, ``You see, the Americans are 
coming after us,'' when, in fact, all we were doing was holding 
accountable a number of individuals for abuses of human rights 
and for corruption.
    Senator Cardin. And that is one of the reasons why we would 
suggest that the Global Magnitsky bill could avoid those types 
of real problems, including statements that you have to make 
that are not necessarily productive to our relationship with 
other countries when we are going after human rights violators. 
So, you have already pointed out that targeted sanctions are 
valuable tools, so I will not reiterate that.
    But, let me just make one last point on this. We have the 
separation of branches of government. There are not many other 
countries in the world that have that. We need to use that to 
our advantage. You know, you cannot control what Congress does. 
Sometimes that gives you an ability to go places and do things 
that you otherwise could not do. So, I would just urge the 
administration to play that more aggressively than you have in 
the past. Congress, yes, can initiate laws with sanctions. We 
can do it. We have done it. We have done it successfully; at 
times, when the administration did not want us to do it--really 
did not want us to do it. We still did it. And the results, I 
would say, have been very, very positive, not only for the 
advancement of human rights, but for advancement of many of our 
other goals.
    So, the Global Magnitsky Human Rights Accountability Act, 
is an effort to get that right, to give you the tools that you 
can use, but to also say there are going to be times when 
Congress wants an easier process so we do not have to declare 
an emergency, like you have to do today when using these tools. 
We do not have to pass a specific law; we can do it through our 
committees and direct you to take a look at an individual who 
we think deserves that type of attention. And I think it really 
does play to the strength of America's independent branches of 
government, allowing you to do what you should, but also 
allowing Congress to carry out its role, either by passing 
specific laws or directing the administration to take action.
    And again, I thank you for your incredible record, both in 
government and out of government, for what you have done to 
advance human rights.
    The Chairman. Thank you so much.
    There will be a number of questions, I think, from other 
Senators. And if you would answer those fairly promptly, this 
helps us establish a record to deal with this legislation that 
I know you support and Senator Cardin has championed. So, thank 
you so much for being here. Thank you for your service.
    And I think, in light of what is getting ready to happen 
with votes, it might be good to go ahead and bring the other 
witnesses up. Let us hear their testimony, and then we can 
alternate. Sorry this has been so brief. It is not out of 
disrespect for--well, I--with us questioning, I mean, it is 
probably okay. So----
    [Laughter.]
    The Chairman [continuing]. Anyway. Thank you so much.
    Mr. Malinowski. Thank you so much.

[Pause.]

    The Chairman. Thank you both for being here. And I know you 
have been introduced. Just because of the way the seating order 
is, Sarah, if you would like to start first, that would be 
great.

 STATEMENT OF SARAH MARGON, WASHINGTON DIRECTOR, HUMAN RIGHTS 
                     WATCH, WASHINGTON, DC

    Ms. Margon. Sure, I am happy to.
    Chairman Corker, Ranking Member Cardin, other members of 
the committee, thank you for inviting me to testify today. As a 
former Senate staffer and a liaison to this committee, it is a 
particular honor to be here. So, thank you.
    I would like to specifically thank Senator Cardin for his 
long-standing commitment to fighting corruption and addressing 
global human rights abuses, including, but certainly not 
limited to, the bill we are discussing today, the Global 
Magnitsky Human Rights Accountability Act.
    Now, the world is undergoing incredible turmoil with grave 
implications for millions of people. If you look at countries 
where the Arab Spring took root, it has been replaced, in many 
cases, by conflict and repression. ISIS and other Islamic 
extremists are committing mass atrocities and threatening 
civilians, not only in the Middle East, but in Asia, in Africa, 
and beyond. Even if we look past ISIS, many governments have 
sought to respond to the very real danger of armed militancy 
with a myopic security response. Legitimate counterterrorism 
measures are often coupled with an unprecedented crackdown on 
independent civil society and the media that receives, in many 
cases, little more than a passing criticism from the United 
States and other countries. Governments such as Bahrain and 
Ethiopia have thrown peaceful activists and human rights 
defenders in jail for being outspoken, under the guise of 
fighting terrorism. Partnerships with security forces and 
governments known to be both corrupt and abusive, from Egypt to 
Afghanistan to Uganda, appear to be receiving less, rather than 
more, scrutiny from the United States. Around the world, we 
have documented how repressive government tactics often spark, 
or at least exacerbate, many of today's most pressing security 
challenges. And yet, human rights defenders challenge these 
injustices, and risk harassment and attack, while those who 
threaten them generally do so with great impunity.
    It is within this framework that I would like to discuss 
three countries where I actually think the Global Magnitsky 
bill might be particularly valuable.
    Let us start with Iraq. More than 12 years after the United 
States-led forces invaded Iraq, it has become quite clear that 
the country's transition to a functioning and stable democracy 
built on the rule of law is in tatters. Even before ISIS's 
dramatic territorial gains more than a year ago, human rights 
conditions were deteriorating dramatically. Iraq grappled with 
a weak criminal justice system plagued by serious corruption 
and political interference. Courts frequently based convictions 
on coerced confessions and trial proceedings that fell far 
short of international standards.
    At that time, the Iraq Government was struggling to address 
bombings and attacks, and it employed draconian and abusive 
tactics by heavy-handed security forces increasingly under the 
political influence of former Prime Minister Nouri al-Maliki, 
who also sponsored militias outside of regular security forces. 
ISIS's takeover of massive swaths of territory in June 2014 was 
a testament to the alienation of Sunni communities as many 
welcomed ISIS fighters as liberators from the sectarian 
oppression of government authorities. To put it simply, former 
Prime Minister Maliki's unchecked anti-Sunni policies created 
fertile ground for ISIS to escalate the conflict that has 
helped spawn today's crisis.
    A sanctioned regime like the one the Global Magnitsky bill 
would create is certainly no panacea for what we are facing 
there, but, as a starting point, it sends a clear signal that 
the United States is not open for business to persons 
responsible for serious human rights abuses or large-scale 
corruption. It also has the potential to spur greater domestic 
accountability for such abuses, which is largely absent.
    On Uzbekistan: Uzbekistan's human rights record is nothing 
short of atrocious. Thousands of people are imprisoned on 
politically motivated charges, torture is endemic, and the 
authorities regularly go after civil society activists, 
opposition members, and journalists in very barbaric ways. 
Muslims and Christians who practice their religion outside 
strict state controls are persecuted, and, despite some changes 
in 2013 due to outside pressure, the government still forces an 
estimated 2 million adults to harvest cotton every fall under 
draconian conditions. Now, Washington has some tools to 
encourage reform, but they have not been used, despite a much 
reduced need to rely on Tashkent for the transit of United 
States troop supplies out of Afghanistan.
    When it comes to Uzbekistan, the Obama administration needs 
a fresh approach that leans more in the direction of strategic 
pressure instead of strategic patience, mainly because there is 
no evidence that officials who oversee or engage in torture, 
forced labor, or persecution of activists will change their 
behavior absent serious political or economic consequences.
    Very quickly on Bahrain: While the majority of Bahrainis 
are Shiite, the country is ruled by a Sunni-dominated 
autocratic monarchy that has shown no real intention to reform, 
despite a number of cosmetic initiatives. In 2011, the 
authorities used lethal force to suppress a largely peaceful 
pro-democracy movement which proved to be a turning point. King 
Hamad appointed an independent commission to look into human 
rights violations, and dutifully accepted all of its 
recommendations. But, little has been done to implement those 
recommendations. Efforts to restart a national dialogue have 
failed enough over the past year. Bahrain's main opposition 
party has refused to participate in the national dialogue 
process to protest authorities prosecuting some of its senior 
members for exercising their right to free speech.
    More generally, Bahrain's court convicts and imprisons 
peaceful dissenters. The trials we have been able to monitor 
have been exceptionally unfair. Here again, a global 
sanctioning regime like the Global Magnitsky bill--like the one 
the Global Magnitsky bill intends to authorize could help add 
general pressure for a more rights-respecting political 
environment, as it would provide the administration with the 
tools needed to show the opposition the United States has 
embraced their concerns, as well, beyond just the occasional 
release of a prisoner, which we saw last week and then again 
the re-arrest, despite the U.S. decision to lift arms 
restrictions.
    I think I will stop there.
    Thank you.
    [The prepared statement of Ms. Margon follows:]

                   Prepared Statement of Sarah Margon

    Chairman Corker, Ranking Member Cardin, other members of the 
committee, thank you for inviting me to testify today. As a former 
Senate staffer--and a liaison to this committee in particular--it is a 
true honor to sit before you now. I would like to specifically thank 
Senator Cardin for his long-standing commitment to fighting corruption 
and addressing global human rights abuses--including but not limited to 
the introduction of the Global Magnitsky Human Rights Accountability 
Act. Your support, Mr. Ranking Member, particularly in the face of such 
global tumult, is greatly appreciated.
    Indeed, the world is undergoing incredible turmoil, with grave 
implications for millions of people. In almost every country where the 
Arab Spring took root, it has been replaced by conflict and repression. 
ISIS and other lslamist extremists are committing mass atrocities and 
threatening civilians not only in the Middle East but also in Asia, 
Africa, and beyond. Even beyond ISIS, many governments have sought to 
respond to the very real danger of armed militancy with a myopic 
security response that ignores the importance of upholding fundamental 
rights. Legitimate counterterrorism measures are often coupled with an 
unprecedented crackdown on independent civil society and the media that 
receives little more than passing criticism from the United States and 
other democracies. Governments such as Bahrain and Ethiopia have thrown 
peaceful activists and human rights defenders in jail for being 
outspoken on human rights under the guise of fighting terrorism. 
Partnerships with security forces and governments known to be both 
corrupt and abusive--from Egypt to Afghanistan to Uganda--appear to be 
receiving less rather than more scrutiny from the United States.
    Around the world, Human Rights Watch has documented how repressive 
government tactics often spark, or at least exacerbate, many of today's 
most pressing security challenges. And yet, human rights defenders and 
others who expose and challenge these injustices risk harassment and 
attack while those who threaten them generally do so with impunity. It 
is with this framework in mind that today I would like to briefly 
discuss current human rights trends in three countries where a tool 
like the Global Magnitsky bill might be particularly valuable.
                                  iraq
    More than 12 years after U.S.-led forces invaded Iraq, it has 
become quite clear that the country's transition to a functioning and 
sustainable democracy built on the rule of law lies in tatters. Even 
before ISIS' dramatic territorial gains more than a year ago, human 
rights conditions in the country were deteriorating. The rights of 
Iraq's most vulnerable citizens, especially women, the Sunni minority, 
and detainees, have been regularly violated by the government with 
impunity.
    Before ISIS, Iraq grappled with a weak criminal justice system, 
plagued by corruption and political interference. Courts frequently 
based convictions on coerced confessions and trial proceedings that 
fell far short of international standards. Thousands of women, as well 
as many men, were detained without charge, and subjected to torture and 
ill-treatment. Even secret detention facilities in the government 
district came to light.
    At that time, the Iraqi Government was struggling to maintain 
security against terrorist bombings, and employed draconian and abusive 
tactics by heavy-handed security forces, increasingly under the 
political influence of former Prime Minister Nouri al-Maliki, who also 
sponsored militias outside of the regular forces. Suicide attacks, car 
bombs, and assassinations increased again over the past few years, 
killing more than 12,000 people outside of combat zones in 2014 alone. 
The government responded with mass arbitrary arrests, torture of 
detainees, and convictions after unfair trials based on information 
provided by secret informers.
    ISIS's takeover of massive swathes of Iraqi territory in June 2014 
was a testament to the alienation of Sunni communities, as many 
welcomed ISIS fighters as ``liberators'' from the sectarian oppression 
of government authorities. To put it simply, former Prime Minister 
Maliki's unchecked anti-Sunni policies created fertile ground for ISIS 
to escalate the conflict, enlist several Sunni armed groups, and help 
spawn today's crisis.
    Now, as ISIS seeks to expand its brutal control and the government 
responds with regular forces and abusive militias, civilians have 
become the targets of unlawful attacks and political repression by both 
sides. There is virtually no accountability for grave abuses. ISIS is 
abhorrently proud of its summary executions, systematic rape and 
subjugation of women. At the same time, the Iraqi criminal justice 
system has proved incapable of holding members of government forces and 
allied militias to account for extrajudicial executions, abductions, 
indiscriminate attacks and widespread and deliberate destruction of 
civilian property.
    A sanctions regime like the one the Global Magnitsky bill would 
create is certainly no panacea for the many challenges faced by Iraq 
but it would, as a starting point, send a clear signal that the United 
States is not open for business to persons responsible for serious 
human rights abuses or large-scale corruption. It also has the 
potential to spur greater domestic accountability for such abuses. If 
Prime Minister Al-Abadi is sincere about his commitment to create a 
more inclusive government, he should welcome the establishment of such 
a sanctions regime as a tool to help reinforce his goals.
                               uzbekistan
    Uzbekistan's human rights record is nothing short of atrocious. 
Thousands of people are imprisoned on politically motivated charges, 
torture is endemic, and the authorities regularly go after civil 
society activists, opposition members, and journalists. Muslims and 
Christians who practice their religion outside strict state controls 
are persecuted and, despite some changes in 2013 due to outside 
pressure, the government still forces an estimated 2 million adults to 
harvest cotton every fall under draconian conditions.
    Now, Washington already has some of the tools it needs to encourage 
reform, but they have not been used in quite some time, despite a much-
reduced need to rely on Tashkent for the transit of U.S. troop supplies 
out of Afghanistan. There is little factual evidence to support 
concerns that stronger criticism by the U.S. over rights will lead 
Uzbekistan to forge a stronger alliance with Russia. Some even argue 
that President Islam Karimov needs (and craves) Western support and 
legitimacy a great deal more than the West needs him.
    When it comes to Uzbekistan, the Obama administration needs a fresh 
approach that leans more in the direction of ``strategic pressure'' 
instead of ``strategic patience''--mainly because there is no evidence 
that officials who oversee or engage in torture, forced labor, or the 
persecution of activists will change their behavior absent the prospect 
of serious political or economic consequences. Indeed, since 2009--when 
the administration increased contacts and military cooperation with 
Tashkent--human rights concerns have gone from bad to worse.
    So the possibility of Uzbekistan officials facing a fair U.S.-based 
sanctions regime based on responsibility for human rights abuses and/or 
major graft presents an excellent, targeted opportunity to leverage 
change. With a new tool in the hands of U.S. diplomats and a greater 
potential for individual scrutiny, we might see the power of deterrence 
in action by stirring inaugural signs of change: just knowing that they 
could be banned from coming to the United States or from using its 
banking system could be enough to force an abusive official to think 
twice before acting.
                                bahrain
    Over the last year, Bahrain's main opposition party has refused to 
participate in the national dialogue process to protest authorities 
prosecuting some of its senior members for exercising their rights to 
free speech. In November the party also boycotted the elections to 
protest a manifestly unfair electoral system. This, along with the 
continued detention of 13 high-profile opposition leaders jailed solely 
on account of their exercise of their rights to freedom of peaceful 
assembly, association, and expression has led to stalemate on the long-
awaited national dialogue, which the authorities appear determined to 
undermine at every turn. More generally, Bahrain's courts convict and 
imprison peaceful dissenters--the trials we have been able to monitor 
were without exception grossly unfair--and have yet to hold any senior 
officials accountable for torture and other serious rights violations. 
The high rate of conviction on vague terrorism charges and imposition 
of long prison sentences for peaceful criticism reflect the weakness of 
the justice system and its lack of independence.
    While the majority of Bahrainis are Shiite, the country is ruled by 
a Sunni-dominated, autocratic monarchy that has shown no real intention 
to reform, despite a number of cosmetic initiatives. In 2011, the 
authorities used lethal force to suppress a largely peaceful pro-
democracy movement, which proved to be a turning point. While King 
Hamad appointed an independent commission to look into human rights 
violations and dutifully accepted all of its recommendations, little 
has been done to implement those recommendations. Efforts to restart a 
national dialogue between the government and opposition have failed, in 
large part because the key opposition leaders remain imprisoned.
    Notably, the last few weeks have seen a rather convulsive back and 
forth as the Bahraini authorities arrested, released, and then re-
arrested some of these prominent detainees. At the same time, the Obama 
administration announced it was lifting arms restrictions to the 
Bahraini Defense Force--a change Bahraini authorities had long been 
pushing for--not only because of their participation in the anti-ISIS 
coalition but because they had ostensibly also taken ``meaningful'' 
steps at reform.
    There is little evidence to suggest that the Bahrain Government is 
committed to engaging in real reform, and the administration's decision 
to restart military aid may well provide a disincentive and, in fact, 
encourage the Government of Bahrain to pursue the path of repression 
rather than that of accommodation.
    Once again, a global sanctioning regime like the one the Global 
Magnitsky bill intends to authorize could help add general pressure for 
a more rights-respecting political environment as it would provide the 
administration with the tools needed to show the opposition that the 
United States has embraced their concerns as well--beyond just the 
release of the occasional prisoner. Specifically, by denying visas and 
access to the U.S. banking system to members of the security forces and 
judicial system credibly linked to serious crimes such as torture, the 
United States would be reasserting its commitment to accountability and 
the rule of law in Bahrain--a key but very absent component of any 
meaningful path forward.
                               conclusion
    As what feels like cataclysmic upheaval in nearly all corners of 
the world persists, it often seems like those who seek to uphold basic 
international norms and support fundamental freedoms are consistently 
at risk while autocratic governments get a free pass. Even as positive 
change seems increasingly hard to come by, such efforts are still worth 
pursuing. And that's why passing the Global Magnitsky bill is so 
important. This bill does not sanction governments wholesale, cut off 
security assistance, or restrict economic cooperation. It is not 
designed to interrupt bilateral, government-to-government engagement--
it is designed to take a tailored approach that creates a long overdue 
tool for the U.S. to easily go after abusive individuals.
    Honing in on corrupt and abusive officials makes it harder for 
authoritarian rulers, dictators, and kleptocrats to recruit and 
maintain a coterie of supporters. We have seen a return to this trend 
and so by removing the perks of crime, this bill--if it becomes law--
would shine a light on those who commit such acts and hold them to 
account. In that, Mr. Chairman, there can be very little downside.
    I look forward to your questions.

    The Chairman. Thank you very much. Thank you.
    Mark. Excuse me. Doctor.

              STATEMENT OF MARK LAGON, PRESIDENT, 
                 FREEDOM HOUSE, WASHINGTON, DC

    Dr. Lagon. Mark is fine.
    Chairman Corker, Senator Cardin, thank you very much for 
inviting me back to testify. It is a pleasure.
    I would like to talk very simply about the two kinds of 
human rights questions that you have called upon us to look at, 
and a couple of canny sets of tools that could really deal with 
them: on the one hand, where governments do not protect the 
most vulnerable people, the scourge of human trafficking, and 
the area that Freedom House is more focused on, which is where 
repressive regimes repress and rob their citizens with 
corruption. There are canny tools that you have been working in 
the committee to advance Senator Corker's legislation on an 
antitrafficking partnership fund, and Senator Cardin's 
legislation on targeted sanctions. I think these are exactly 
the kind of canny tools we should use.
    I have a couple of overall messages. Human rights is not 
just about our values. But, corruption, repression, 
trafficking, these engage strategic and economic interests of 
the United States. We need American leadership globally, and 
not only as a beacon for human dignity, but to advance our 
economic and strategic interests in these areas. If you look at 
the way that General al-Sisi, since taking power, has 
instituted some of the harshest crackdowns that you have seen 
in modern Egyptian history, and the way that terrorism has 
actually spiked as a result, one sees that there are actually 
security interests bound up in urging changes for human 
rights--all the while, the United States giving massive 
military assistance to Egypt.
    And my second major message is, let us leverage the 
influence the United States has. Canny tools that maximize U.S. 
leverage do not cost much to the taxpayer and avoid harm to 
innocent people while putting pressure on those who need to 
change and to protect human rights are important.
    First, with respect to modern slavery, which the 
International Labor Organization, in a rather conservative 
estimate, says is at least 21 million people in the world, is a 
terrible problem for the most vulnerable groups. Labor 
trafficking victimizes the most people. Sex trafficking yields 
the most profits for traffickers on the backs of its victims. 
Let us not only look at human trafficking as a matter of 
dignity and freedom, although that is why I wake up in the 
morning and come to work. Businesses and economies are harmed 
by the very problems that human trafficking represents. 
Businesses' value, their productivity, their reputations suffer 
when human trafficking is intermingled with their operations. 
Human trafficking is based on the antitheses of economic--the 
economic growth, prosperity, and entrepreneurship that we 
should be for.
    In particular, on the case of Malaysia, Freedom House 
supports the Trans-Pacific Partnership. Thanks to Senator 
Cardin and Senator Menendez, the administration has made some 
assurances that it will not go soft on countries that deserve a 
Tier 3 ranking. You really should watch, as a matter of 
oversight, Malaysia and Thailand in that respect.
    On human trafficking, Freedom House has endorsed Chairman 
Corker's End Modern Slavery Initiative Act as exactly the kind 
of tool we should proceed with, leveraging taxpayer resources 
with the resources of other nations, corporations, and 
philanthropies to fight modern slavery.
    As for the larger questions of authoritarianism and 
corruption, they are intermingled. And, where people say that 
authoritarian rule brings about stability, they are wrong. 
Freedom House has documented that 90 percent of terrorist 
attacks in the world, and 98 percent of terrorism fatalities, 
occur in not-free or partly free countries, as opposed to free 
democracies. We have an interest in more countries becoming 
democracies, for our counterterrorism policy. Corruption often 
fuels human rights abuses, because corrupt officials will go to 
greater and greater lengths to protect their own economic 
benefits and fight for staying in power.
    Freedom House has documented, in its Freedom in the World 
Report, two major trends, one that authoritarian rulers are 
using more and more harsh traditional tactics in places like 
Egypt, Rwanda, Ethiopia, Vietnam, Azerbaijan, and Russia's 
invasion of Crimea outside its borders.
    Secondly, our research at Freedom House indicates that 
there is a key relationship between human rights and terrorism. 
Repression breeds more terrorism, and counterterrorism is being 
used as an excuse by governments to impose their restrictions 
and repression on civil society for completely nonviolent, 
peaceful uses. A recent newly passed national security law in 
China is just such an act.
    Let me finish with a few brief further observations.
    In Iran and Cuba, the United States needs to leverage its 
diplomacy to look at human rights issues and not separate its 
diplomacy to either look, in the case of Iran, solely at the 
important issue of nuclear peace, or, in the case of Cuba, 
treating diplomacy as an end in itself. The United States 
decision to plow forward, full speed ahead, with a restoration 
of diplomatic relations with Cuba just as 100 peaceful 
activists were being detained sends troubling mixed messages.
    Let me end by an important word about an additional tool in 
the toolbox needed, besides diplomacy. The Global Magnitsky 
Human Rights Accountability Act is something that Freedom House 
has endorsed, strongly believes would be an important and 
effective tool by imposing visa bans and asset freezes on 
foreign officials responsible for either human rights abuses or 
corruption.
    Four reasons to back it.
    A visa ban would draw international attention to the 
individuals responsible and put authoritarian leaders in a no-
win situation. They either protect the repugnant officials 
responsible for human rights abuses and corruption or they cut 
them loose and lose their own means for keeping power.
    Secondly, the act would impose tangible consequences so 
that perpetrators would be held to account. Those perpetrators 
might think twice if they are not able to leave their country 
for the United States or access funds in U.S. banks.
    Third, by targeting high-level corruption, the bill goes 
right after the Achilles heel of authoritarian regimes. If 
there are some days in which citizens of countries find human 
rights an abstraction, they will never find corruption 
abstraction. They always understand that, and they have 
widespread support for going after their leaders who are 
robbing them blind.
    And then, finally, the Global Magnitsky Act, by not 
targeting particular nations and allowing the executive branch 
and Congress with its referrals to have a targeted surgical 
approach, would allow sanctions to be applied to places like 
Saudi Arabia and Ethiopia so that you can deal with the larger 
economic and security interests and put pressure on those most 
responsible for corruption and human rights.
    So, in order to deal with the problem of human trafficking 
for the most vulnerable people not being protected by states, 
or the bigger problem that Freedom House focuses on, which is 
the repression of people and the robbery of people by 
autocratic governments, these kinds of tools, both Senator 
Corker's bill on the Human Trafficking Fund and Senator 
Cardin's bill on targeted sanctions, are exactly the kinds of 
lean, targeted tools that we should use. We should think of 
Sergei Magnitsky and how we ought to look out for those who are 
being squeezed by corruption and human-rights-offending 
officials, and put the squeeze on them.
    Thanks.
    [The prepared statement of Dr. Lagon follows:]

                Prepared Statement of Dr. Mark P. Lagon

                              introduction
    Chairman Corker, Ranking Member Cardin, distinguished members of 
the committee, it is an honor to testify before you on the current 
state of human rights around the world.
    Today, I will look at two kinds of human rights problems and two 
kinds of judicious policy tools to address them. The human rights 
problems are (1) human trafficking--when governments fail to protect 
the most vulnerable--and (2) a more central problem where unaccountable 
governments repress and rob their citizenry, the centerpiece of Freedom 
House's research and programming. The prudent tools to leverage U.S. 
influence I want to talk about are (1) Senator Corker's legislation for 
an antitrafficking partnership fund and (2) Senator Cardin's 
legislation for targeted sanctions on corrupt and rights-abusing 
officials.
    I offer two simple messages: First, that addressing corruption, 
repression, and trafficking are about our tangible economic and 
strategic interests every bit as much as about our values. 
Unfortunately, the news is grim on repressive, unaccountable, corrupt 
governments around the world. The 2015 edition of ``Freedom in the 
World,'' Freedom House's annual worldwide review of political and civil 
rights, found freedom in decline for the 9th straight year. The annual 
State Department Human Rights Reports--finally released after weeks of 
delay--bear this out.
    As President of Freedom House, I often hear objections that a 
multitude of human rights challenges globally are too ingrained for the 
United States to successfully affect or that there are already so many 
problems here at home we shouldn't bother with the many challenges 
overseas. These arguments are short-sighted and ill-founded.
    Decisive U.S. global leadership is still needed both to serve as a 
beacon for human dignity and freedom and to advance our interests. 
Especially given globalization, our strategic and economic interests 
are inextricably linked with the protection and promotion of human 
rights.
    Let's take two of the toughest cases. It is estimated that $300 
billion is lost per year in intellectual property theft, and China 
accounts for 70 percent of that loss.\1\ If Chinese authorities 
respected rule of law, nowhere near this level of IP theft, including 
from U.S. headquartered multinational corporations, would occur. Human 
rights has a direct bearing on U.S. security interests, too. In Egypt, 
terrorist attacks have soared since General al-Sisi took power, and he 
has instituted arguably the harshest crackdown in modern Egyptian 
history.\2\ Activists have been arbitrarily arrested, independent 
groups are being harassed and shut down, and dozens have disappeared 
over the last several months.\3\ That is while the U.S. continues to 
give massive military assistance to that regime.
    My second message is to encourage putting inexpensive, high-
leverage, targeted tools in the U.S. foreign policy toolbox to advance 
those interests in human rights. There are tools that maximize U.S. 
leverage, will not cost the American taxpayer much, and avoid harm to 
innocent people and enterprises in the U.S. and globally. I'll touch on 
ones the chairman and ranking member have been advocating.
                             modern slavery
    In some countries, our foreign policy challenge is pushing 
governments to protect their most vulnerable populations. According to 
a conservative International Labor Organization estimate, human 
trafficking--aptly referred to as modern day slavery--victimizes some 
21 million men, women, and children around the world through sexual and 
labor exploitation. While labor trafficking victimizes more people, sex 
trafficking yields more profits to the traffickers on the backs of its 
victims. Trafficking preys on the powerless and depends on corruption 
and weak rule of law in order to thrive.
    But it is not only human dignity and freedom that suffer from the 
impacts of trafficking. Businesses and economies are impacted, as well. 
Businesses' value, productivity, and reputation suffer where gross 
exploitation of marginalized populations arise, so often facilitated by 
corruption. Economic growth, prosperity, entrepreneurship, and poverty 
alleviation benefit greatly from transparency, rule of law, 
predictability, and formal economic activity. Conversely, human 
trafficking is based on all the antitheses of these factors--not only 
dehumanizing its victims but undercutting the mutual interests of the 
U.S. and other nations in thriving markets grounded in access to 
justice for all.
    Freedom House supports the Trans-Pacific Partnership (TPP) and the 
recent legislation to facilitate such trade deals. Senators Menendez 
and Cardin, among others, asked whether Tier 3 countries in the annual 
Trafficking in Persons (TIP) Report would be let into TPP. The 
executive branch must not send forward candidates for TPP who are in 
the lowest ranking in the TIP Report, about which it has given 
assurances to the Congress. In particular, Malaysia is a very 
problematic case with intermingled issues of corruption and lack of 
protections for marginalized and migrant populations, and should not be 
let off the hook of the intended ``minimum standards'' set out in the 
Trafficking Victims Protection Act.
    Freedom House has emphatically endorsed Chairman Corker's End 
Modern Slavery Initiative Act (S. 553), which creates a grantmaking 
foundation to address global trafficking and is funded by leveraging 
taxpayer resources with those of other nations, corporations, and 
philanthropic foundations. If passed, this legislation will take a bold 
step forward in the fight against modern slavery and will enable U.S. 
foreign policy to more effectively pressure governments to protect 
their most vulnerable populations. It is exactly the kind of prudent, 
canny foreign policy tool we need, an idea I will return to.
                    authoritarianism and corruption
    Authoritarianism and the corruption that usually goes hand in hand 
with it also pose major challenges for human rights. Some erroneously 
believe authoritarian rule brings stability. In fact, the opposite is 
true. Repression breeds discontent, and a lack of democratic governance 
can create an enabling environment for terrorism. Freedom House 
analysis highlights how 90 percent of terrorist attacks and 98 percent 
of terrorism fatalities occur in Not Free and Partly Free countries, as 
opposed to Free democracies.\4\ Moreover, corruption often fuels human 
rights abuses, because corrupt officials will go to ever-greater 
lengths to hold onto power lest they lose their access to state 
resources. In addition to its well-known reports, much of what Freedom 
House does is civil-society capacity building partnerships. One 
important area of programming prepares journalists to uncover 
corruption and criminality, and withstand threats of violence, as 
Freedom House programs have done in Ukraine, Moldova, and Mexico. And I 
know corruption in Moldova. In 2008, as antitrafficking ambassador, the 
office I directed saw and called out in the TIP Report how the head of 
a U.S.-funded antitrafficking interagency office in Moldova was 
complicit in trafficking. A Tier 3 ranking lit a fire under its leaders 
to clean up the problem. Freedom House research indicates Moldova still 
has a long way to go in fighting corruption and strengthening 
democratic governance.\5\
    The 2015 ``Freedom in the World'' report has two overarching 
findings. First, Freedom House found a troubling increase in the use of 
aggressive tactics by authoritarian regimes worldwide and saw worrying 
backsliding in accountable governance of nations of regional and 
economic importance: Venezuela, Egypt, Turkey, Thailand, Kenya, and 
Hungary. Our 2015 report found a more explicit rejection of democratic 
standards than previous years. Earlier, autocrats acknowledged 
international agreements and attempted to veil their undemocratic 
actions with quasi-democratic language--holding elections that were 
free but not fair, for example. Today, authoritarian rulers are turning 
to more aggressively antidemocratic behavior and harsher, more 
``traditional'' tactics in places like Egypt, Rwanda, Ethiopia, and 
Vietnam; Azerbaijan's crackdown on human rights defenders; and Russia's 
invasion of Crimea.
    Second, the relationship of human rights to terrorism is crucial to 
an enlightened understanding of U.S. strategic interests. Again, 
repression amplifies the discontent fueling terrorism. And our annual 
report found a marked increase in authoritarian regimes using 
``counterterrorism'' as an excuse to crack down on nonviolent dissent 
and repress minorities. In China, terrorism is invoked as an excuse to 
repress the Uighur ethnic minority, jailing anyone expressing dissent 
and bringing ethnically Han Chinese to populate Xinjiang. A newly 
passed ``national security law'' broadened the definition of what 
constitutes a threat to national security and has been used--as the 
State Department noted--``as a legal facade to commit human rights 
abuses.'' \6\ Over the last week, more than 100 lawyers, activists, and 
other peaceful human rights defenders have been detained.\7\ So, too, 
even in strengthening a coalition of partners to fight ISIS as itself a 
threat to human rights, the U.S. Government should take care not to 
give such partners--like Bahrain and its big sibling Saudi Arabia--a 
pass to crack down on peaceful opposition and civil society. I wear a 
Freedom House wristband (purple like the Not Free nations on our 
Freedom in the World map) to recall Abdulhadi al-Khawaja, a journalist 
jailed in Bahrain since 2011 in just such an overreach by an autocratic 
``partner.''
    Let me focus on cases Assistant Secretary Malinowski raised at the 
release of the annual Human Rights Report. In dealings with Iran, the 
United States should address the serious human rights concerns with at 
least the same energy as it did in negotiating a nuclear accord. The 
talks with Iran unfortunately coincided with a de-prioritization and 
de-linking of human rights from the global agenda, when they instead 
should have advanced the concerns that the Iranian people and the world 
share about the regime's repression. Earlier this week, in spontaneous 
gatherings after the announcement of an agreement, Iranians reminded us 
of what those priorities were. They publicly chanted for the release of 
opposition leaders and declared that their next agreement should secure 
their civil rights. We must raise the cases of Americans detained in 
Iran and seek tangible progress on human rights and rule of law issues, 
including the hundreds of political prisoners, Iran's staggeringly high 
execution rate, its repressive media and online environment, and its 
subjugation of women and religious minorities.
    In negotiations with Cuba, the United States must ensure that 
actual progress is made in moving the ball forward on human rights, 
civic space, and free elections. As in Iran, the yardstick of success 
for U.S.-Cuba policy is not merely the diplomacy in and of themselves--
it is whether we use diplomatic relations to promote meaningful reforms 
and reduce cruel repression in Cuba. The United States decision to 
continue full speed ahead with the restoration of diplomatic 
relations--despite last week's detention of more than 100 peaceful 
activists in Cuba \8\--sends troublingly mixed messages about the 
importance of human rights and civil society for U.S. foreign policy.
    Diplomatic engagement, when leveraged rather than seen an end in 
itself, can serve as an important and powerful tool in our foreign 
policy tool box to address human rights. But, as the United States 
Senate well knows, there are times at which new tools are needed.
Global Magnitsky Human Rights Accountability Act
    The Global Magnitsky Human Rights Accountability Act is just such a 
tool. The Global Magnitsky bill would build on current U.S. policy of 
condemning human rights abuses and supporting human rights defenders by 
imposing visa bans and asset freezes on foreign officials responsible 
for gross human rights violations or large-scale corruption.
    Freedom House has endorsed the Global Magnitsky Act and believes it 
will be an important and effective foreign policy tool for several 
reasons:

    1. A visa ban would draw international attention to individuals 
responsible for human rights abuses and may constrain their ability to 
escape justice at home in the future by putting authoritarian rulers 
into a no-win situation: either they protect the most repugnant 
officials and thereby expose the cruelty of their regimes or they cut 
loose those officials who do their dirty work, undermining their 
ability to stay in power through any means.
    2. The Global Magntisky Act imposes tangible consequences--
something that may deter future human rights abuses. Perpetrators of 
human rights abuses usually are shielded by their governments and 
expect to evade justice. Some foreign officials may think twice about 
cracking down on opposition or civil society activists if they are 
unable to leave their country for the United States or access funds in 
U.S. bank accounts. An escape route to the United States matters a 
great deal to officials in some countries, particularly in the 
Americas.
    3. It targets high-level corruption--the Achilles heel of 
authoritarian regimes. While human rights may seem to many ordinary 
citizens as a bit removed from their daily life, the injustice of high-
level corruption is widely understood, and addressing it is widely 
supported by the public.
    4. No country would be singled out. While comprehensive sanctions 
serve as an important and appropriate foreign policy tool in acute 
cases, the Global Magnitsky Act would successfully target abusers 
without harming average citizens. It could apply to countries like 
Saudi Arabia and Ethiopia that tend to escape criticism for their human 
rights abuses because of U.S. economic or security interests (although 
it would depend to a significant degree on congressional referrals for 
effective implementation).
                               conclusion
    To sum up, on the one hand, human trafficking victimizes the most 
vulnerable--particularly women, children, minorities, and innocent 
migrants. The End Modern Slavery Initiative Act leverages U.S. 
resources with partner funders and partner implementers to give those 
marginalized people basic access to justice.
    On the other hand, the way in which more and more governments are 
repressing civil society and robbing their citizens with systematic 
corruption is Freedom House's major analytical finding. We document how 
those human rights abuses are more brazen and directly coercive; fuel 
terrorism; and use counterterrorism as the pretext to silence, detain, 
torture, and kill nonviolent dissenting voices. The State Department 
Human Rights Report offers copious additional evidence. The global 
targeted sanctions legislation named after a lawyer who was abused and 
killed in a Russia jail, Sergei Magnitsky, is just the kind of tool we 
need--maximizing pressure on those who repress and rob, and minimizing 
collateral damage to others.
    The U.S. has the smarts and more than the modest resources needed 
to apply these canny policy tools to move the needle back in the other 
direction, toward more global freedom. The U.S. Congress should swiftly 
pass both the End Modern Slavery Initiative Act and the Global 
Magnitsky Human Rights Accountability Act to promote not just our 
values but our strategic and economic interests by bolstering human 
rights.

----------------
End Notes

    \1\ ``The IP Commission Report,'' The Commission on the Theft of 
American Intellectual Property, May 2013.
    \2\ Michele Dunne and Robert Kagan, ``Obama Embraces the Nixon 
Doctrine in Egypt,'' The Washington Post, April 3, 2015.
    \3\ Sarah El Deeb, ``Egyptian security agencies increasingly 
detaining activists in secret, rights lawyers say,'' U.S. News and 
World Report, June 17, 2015.
    \4\ Bret Nelson and Tyler Roylance, ``Terrorism Remains Rare in 
Democracies,'' Freedom House (blog), January 9, 2015.
    \5\ Vytis Jurkonis, ``With Corrupt Elites at the Helm, Moldova 
Drifts Off Course,'' Freedom House (blog), June 30, 2015.
    \6\ ``U.S. Condemns Detention of Human Rights Defenders in China,'' 
U.S. Department of State (press release), July 12, 2015.
    \7\ Ivan Watson and Steven Jiang, ``Scores of rights lawyers 
arrested after nationwide swoop in China,'' CNN, July 14, 2015.
    \8\ ``U.S. raises concern over detention of 100 activists in 
Cuba,'' Reuters, July 7, 2015.

    The Chairman. Thank you both very much.
    Just to not spend a great deal of time on this, Dr. Lagon, 
but you mentioned Iran and Cuba. I mean, do you have any sense, 
at present, that we have put aside human rights issues in Cuba 
or Iran in pursuing other agreements--or are you just raising 
that issue to ensure that we do not?
    Dr. Lagon. Well, you know, I have huge regard for Assistant 
Secretary Malinowski. He is a longtime friend. I am sure he is 
pushing these issues. But, it is quite clear that, on the Iran 
matter, there has been a complete de-linkage with human rights. 
When you look, this week, and people going into the streets and 
celebrating the comprehensive sanctions being removed with the 
nuclear deal, some of those people said, ``Now we need an 
agreement for our civil rights.'' But, the United States and 
the international community should be on the side of diplomacy 
applied to human rights as well as nuclear matters.
    On Cuba, we should just be careful that diplomacy does not 
become an end in itself. And it is clear the Cuban regime knew 
what it was doing in locking up 100 people at exactly the time 
the diplomatic relations were being put in place. Let us use 
the diplomacy to fight for reform.
    The Chairman. Do you want to mention something about that, 
Miss Margon?
    Ms. Margon. Sure. I was just going to say, in the case of 
Cuba, I think, actually, by changing and lifting the embargo, 
what the administration has done is opened up a real 
opportunity to work with the Latin American countries on human 
rights in Cuba, which has long been missing, given their stance 
on the embargo.
    In the case of Iran, there is obviously a lot to do, but 
there is potentially a new opening, if we can move forward.
    The Chairman. Let me ask you both. I wonder if you would 
elaborate a little bit on the issue of slavery--modern slavery 
and its connection to really increasing criminal justice 
systems' ability to deal with that. What we have found and what 
we believe to be the case is that modern slavery is a crime of 
convenience, that, since no one is really pursuing--since the 
poor do not have access to criminal justice the way the elite 
do, in essence small-business people take advantage of it, and 
there is no price to pay. But, when there is a price to pay, 
when you actually have a system that fights against that and 
arrests people, all of a sudden it diminishes greatly. And I 
wonder if either of you might want to respond to that.
    Dr. Lagon. Well, if I might begin.
    I entirely agree with the premise, Senator Corker, that you 
laid out in your opening statement, that this about the absence 
of rule of law. There are two basic phenomena here. There are 
whole groups of people--women, minorities, Dalits in India, 
some innocent migrants who go and work as guest workers in 
places--that are not accorded access to justice. And so, what 
happens is that the reward is much higher than the risk for the 
traffickers. And so, both as a human rights matter and as a law 
enforcement matter, you need to have those rights count. You 
know, for the woman who is a domestic servant in Kuwait and who 
is abused both because she is a woman and because she is a 
foreign national from the Philippines or Nepal, she has to be 
treated like a real human being. And those who are responsible 
for holding her passport for--or for beating her, they need to 
be held to account.
    The Chairman. Would you want to respond? Very good.
    I think, because of the timing, I am going to stop my 
questioning. I may interject later. I think the two of you have 
just voted. Is that correct? I am going to step and go vote, 
and, if it is okay, would you become chairman of the committee 
for a while? Thank you.
    Senator Menendez [presiding]. All right, let me ask 
unanimous consent now. [Laughter.]
    Thank you, Mr. Chairman. Thanks for your confidence.
    I regret--this is a footnote--that I missed Secretary 
Malinowski. I would like to get an answer from him about the 
TIP report. And I would also--would have asked him how 2,822 
arbitrary politically motivated arrests in Cuba during the 
first 7 months of this year alone is an indicator that we are 
going to be headed in the right direction. Pretty amazing to 
me. It is pretty amazing to me that, when our colleagues in the 
Senate go to visit in Cuba, they do not visit with human rights 
activists, political dissidents, independent journalists, 
because, if they do, they get barred from a government meeting. 
We have got to break that idea, because, if, globally, the 
message we send is that, in order to meet the government 
officials of a country, that we cannot meet with human rights 
activists, political dissidents, independent journalists in 
China, in Malaysia, and any other place in the world, that will 
be a sad state of affairs for the United States.
    Mr. Chairman, let me start off by thanking Human Rights 
Watch, particularly your colleagues who do the hard work every 
day on behalf of trafficking victims around the world, for 
contributing your experience and expertise to our efforts. And 
before I proceed with some questions, I would like to enter a 
couple of documents for the record. And I am sure the chairman 
would not mind. The first is a letter I sent yesterday to 
Secretary of State Kerry, along with 18 of my colleagues--and I 
understand a similar letter in the House has nearly 130 
signatures--expressing our concern about reports of a possible 
unwarranted upgrade of Malaysia in this year's long-delayed 
Trafficking in Persons report. And the other document I would 
like to submit in the record is a piece from yesterday's Hill 
by David Abramowitz, the vice president of Humanity United, on 
the same topic.
    And, without objection, it is so ordered.

[Editor's note.--The letter and Hill article mentioned above 
can be found in the ``Additional Material Submitted for the 
Record'' section at the end of this hearing.]

    Senator Menendez. Mr. Ambassador, I am glad you are here 
today. Your experience as our lead diplomat on this issue can 
help us get some perspective on what is going on right now. The 
2015 TIP report, which we have still not seen, will have the 
latest release date ever. So, let me ask you. What is the 
normal reporting period covered by a TIP report?
    Dr. Lagon. The TIP report covers from March to March and 
comes out, typically, in June. When this committee confirmed me 
as the TIP Ambassador, I had to get on with the job 10 days 
later, because that is when it was supposed to come out, by 
mid-June. It is unfortunate to leave an important job vacant, 
similar to what occurred with the Ambassador for International 
Religious Freedom for a while. I am very glad to finally see a 
nomination seems to be moving forward. But, in any case, the 
report really works. You know, it propels governments to try 
and change their laws.
    Senator Menendez. Yes, well, I certainly appreciate your 
service in your previous iteration, and now, I am sure, with 
your present leadership. It will continue to be important.
    Now, I understand that it is not unprecedented for some 
late-breaking information after the closure of a reporting 
period that we just describe has been included, but, to your 
knowledge, have events or actions taken in June or July of a 
year ever affected a country's ranking?
    Dr. Lagon. No.
    Senator Menendez. Was it your personal experience, when it 
comes to external pressure--did you have external pressure to 
get to the right answer on a country's ranking because of other 
diplomatic or security concerns?
    Dr. Lagon. There is always a pulling and hauling at the 
State Department between--typically, between the TIP office and 
the regional bureaus, where regional bureaus are raising other 
equities--security interests, counterterrorism issues, energy 
access, commercial concerns. In general, the Department has 
come out in the right place refereeing between those interests. 
I saw it during my tenure. But, I really commend you--and 
before you walked in the room, I commended you and Senator 
Cardin--for raising, in the context of the Trans-Pacific 
Partnership, countries like Malaysia--and, for that matter, 
Thailand--who would be affected under the TPP. They should not 
be shielded from the basic minimum standards set out in the 
Trafficking Victims Protection Act.
    Senator Menendez. Well, as you know, my amendment prohibits 
fast track for Tier 3 human trafficking countries, signed into 
law by President Obama as part of the Trade Promotion 
Authority. In your view, is that type of action helpful in 
combating human trafficking?
    Dr. Lagon. Well, I think that you need to protect the 
integrity of the TIP report. It is clear that Tier 3 rankings, 
whether they involve sanctions or just the stigma of a Tier 3 
ranking, work. And particularly where the United States has a 
relationship on other grounds, on strategic and economic 
grounds, countries have responded to that. Allies of the United 
States, like Israel and Turkey in earlier eras, before I even 
came into the trafficking position, Cambodia----
    Senator Menendez. So, if----
    Dr. Lagon [continuing]. Facing the threat of Tier 3 or 
staying on Tier 3----
    Senator Menendez. So, if the possibility of being on Tier 3 
of the TIP report was an incentivizing factor to change your 
actions and move into action, pass the appropriate laws, and 
whatnot, would it not even be a greater incentivizer that if, 
in addition to being on Tier 3 on the TIP report, you get--
cannot get preferential access to U.S. markets?
    Dr. Lagon. Well, I think that, you know, it cuts against 
the idea of using the leverage.
    Senator Menendez. Yes. It's----
    Dr. Lagon. I think it is unfortunate that Tier 3 countries 
do not get the economic sanctions that are intended for them, 
and that is waived, oftentimes, but it is really important to 
put that--more stigma on----
    Senator Menendez. Now, I would ask you and Miss Margon, 
who--I do not want you to feel, like, left out, here, after 
complementing your organization's great work--if, in fact--and 
I hope this is not the case, because I have seen nothing for 
Malaysia to move from Tier 3 to Tier 2--but, if, in fact, that 
was the case, what would you say about such an action?
    Ms. Margon. Thank you, Senator Menendez. And thank you for 
your leadership on this. We have really enjoyed working with 
you. We also hope it is certainly not the case, but we 
understand a final, final decision may not have yet been made. 
We remain hopeful. But, if, in fact, a decision has been made, 
we would say that it seems very likely that it would be 
political interference to move it up.
    Senator Menendez. And would it not have--my final question 
and then I will turn to Senator Kaine--would it not have the 
consequence--beyond Malaysia, that it would be political 
interference--would it not have the consequence of undermining 
the veracity of the TIP report in a way that other countries 
would say, ``Well, if it is--if I am important enough to the 
United States for trade or for some other reason, then I do not 
have to really live up to worrying about if I am on Tier 3 or 
not''?
    Ms. Margon. I think it certainly undermines the TIP report. 
It sends a poor message to other countries that may be 
sanctioned or on the Tier 3 list. It also undermines the 
presidentially stated goals of the TPP, in terms of moving 
those countries in Asia into a better place. And that is part 
of the longer term vision that we would like to see by having 
Malaysia make the required changes before it is moved up.
    Dr. Lagon. I would just----
    Senator Menendez. Yes.
    Dr. Lagon [continuing]. Add one thing.
    Senator Menendez. Yes.
    Dr. Lagon. You know, the United States has been very 
comfortable putting security allies like Saudi Arabia and 
Kuwait--Kuwait, a country that we marshaled our military forces 
to liberate--on Tier 3, to call it like it is. I would like to 
see us even go farther on the broader human rights front and 
press those nations to reform. It is in their interests and in 
our security interests, as well.
    Senator Menendez. I agree with you.
    And the last point I will make is that, beyond the TIP 
issue, if you start political maneuvering for the purposes of 
accomplishing a goal, then, in addition to the human rights and 
trafficking question, you would have to worry about labor 
rights and environmental issues that we are all concerned about 
in trade agreements, and saying, ``Will you manipulate those in 
order to meet the standard?''
    Senator Kaine.
    Senator Kaine. Thank you, Senator Menendez.
    And thanks, to the witnesses.
    Just a couple of items. First, Dr. Lagon, I want to ask 
about the Americas. Your Freedom in the World Report from 2015 
lists two pretty important American partners, Mexico and 
Colombia, as partly free. And I am interested in having you 
elaborate on that and sort of give me the directional arrow, 
sort of partly free and improving, or partly free and 
degrading.
    Dr. Lagon. Well, you know, Freedom House is proud of trying 
to call it like it is. And, while it is not the State 
Department, it is great that the reports do get the attention 
of the officials of other governments, I have learned in my 6-
months tenure from the number of diplomats and officials I have 
visited. It is almost as many as when I was the TIP Ambassador.
    Colombia is an important partner of the United States, and 
it has much to admire, but there are serious problems. Our 
colleagues at Transparency International indicate that it is 
number 94 out of 175 on the--on its Corruption Perceptions 
Index. There is--you know, the military still operates with 
relatively limited civilian oversight. There have been 
soldiers, in the number of some 700, who have been convicted 
for crimes, but very few high-ranking officers who have been. 
So, you know, even with our allies, we really need to look at 
the problems. They are right in the middle of the scale from 1 
to 7 on both political rights and civil liberties.
    Now, Mexico, we are very invested in at Freedom House. It 
may not be widely known, but our reports are most famous, but 
our programmatic work with civil society partners and 
governments around the world is actually the bulk of what we 
do. And we have a program in Mexico. We work with authorities 
to try and protect journalists from violence. That really 
captures the problem in Mexico, where there is the structure of 
democracy, but criminality, corruption, violence are so 
suffusing the system that, for instance, journalists cannot be 
assured to have access to parts of the country to cover 
questions of criminality, drug trafficking, and so on. And we 
are working on that.
    Mexico is one of the top legislative priorities of Freedom 
House. It is--it perfectly captures the broad theme of my 
opening statement, which is that our interests and our values 
go together, and we need to work on the governance and human 
rights problems in Mexico, because, in fact, issues of 
immigration, drug trafficking, human trafficking, that are 
interests of the United States, are bound up in that.
    Senator Kaine. Is the violence that journalists experience 
in Mexico--is it pretty variable around the country, depending 
upon which state we are talking about?
    Dr. Lagon. Yes, it is. It is.
    Senator Kaine. So, different states have done a better job 
of trying to tackle some of these transparency and violence 
issues?
    Dr. Lagon. We had a retreat of Freedom House's--all of 
Freedom House's staff last week, and I had dinner late last 
week with the director of our Mexico office. She was telling me 
about that variation. It is not just where you would expect it 
to be, but, you know, certain areas where you see the maximum 
trafficking, border regions with Central America, particularly 
problematic.
    Senator Kaine. From Freedom House's perspective, the 
President has made, in his budget proposal, a proposed 
investment in the three countries in the northern triangle in 
Central America--Guatemala, Salvador, Honduras. They all have 
very serious human rights challenges. As we contemplate an 
investment of that magnitude, what are some of the things that, 
you know, you would hope some of those dollars would be devoted 
to, to try to improve the human and civil rights situations in 
those countries?
    Dr. Lagon. Well, I think--you know, honestly, we--it is a 
bargain to invest in civil society to be able to speak up for 
their rights, to know how they can get access to the justice 
system. Creating a situation in which journalists feel safe to 
be able to cover corruption, cover violence--I mean, it is 
really striking how there are more people who are dying in 
Central America for criminal violence than one saw during the 
civil wars towards the end of the cold war. It--so, that 
investment would be a high priority.
    It is not as if the United States has not invested money in 
these countries, in its past. It is what we have been investing 
it in.
    Senator Kaine. I lived in Honduras during that, kind of, 
cold war, civil war period in the 1980s, and it really grieves 
me to see a nation that is actually more violent with a, quote, 
``democratic government'' than it was under a military 
dictatorship, where the oppression was very widespread, but the 
murder rate was dramatically lower. Really grieve for folks 
living in the region for that.
    Ms. Margon, thank you for Human Rights Watch's help. I 
recently did a CODEL to assess the war against ISIL in Iraq and 
also in northern Syria, visiting Gaziantep, Turkey. And you 
were helpful to my team, in terms of understanding some of the 
human rights issues in Turkey, Kuwait, Iraq, and Syria. Wanted 
to ask you one question dealing with that part of the world. 
Human Rights Watch has indicated that the Kurdish-armed group 
that controls much of northern Syria, they have achieved some 
significant battlefield success, with the United States help, 
against ISIL--that is a positive--but that they are having 
continuing challenges in not meeting their obligations to 
demobilize youth soldiers, those under age 18. How prevalent is 
this problem? Is it limited just to Kurdish forces in northern 
Syria? Does it flow over into the Kurdistan area in Iraq? Talk 
about that a little bit.
    Ms. Margon. Thank you. I hope it was a good trip. It was 
certainly a significant undertaking during a short few days.
    The Kurdish troops in Syria have actually tried, from a lot 
of what my researchers have told me--in fact, one came back 
from a recent trip--they have acknowledged that they have this 
problem, and have tried to work with it. It is obviously a 
complicated issue to demobilize children. And when you are in 
the middle of a crisis, it is more difficult. But, I do think 
that there is some commitment to do it. We obviously found that 
they have not gone as far as they said they would. And so, we 
are continuing to press them.
    The problem of child soldiers in that region is, across the 
board, rampant. I was in Iraq last fall, and did not see any 
problem with the Kurdish troops from the KRG. That was not 
something--in fact, I saw--what I saw there was very well-
behaved, very disciplined soldiers, and commanders who were 
deeply upset by what they are seeing with the Shia militias, 
and were not at all shy to talk about it. So, that I did not 
see in any way----
    Senator Kaine. Good.
    Ms. Margon [continuing]. In the KRG.
    But, it is something we are working with. And we are 
pleased that the YPG is open go to working on it and trying to 
move to a better place. That is, for us, a very good sign, as 
opposed to immediately denying it and rejecting that there is a 
problem.
    Senator Kaine. Yes.
    And if I could ask one more question. I am right at the end 
of my time.
    Interested in each of your thoughts, or either of your 
thoughts, about the situation with the press in Egypt. You 
know, another relationship that has been a strong partnership, 
not without tension, not without challenges--I was in Egypt a 
little bit over a year ago with Senator King at a propitious 
moment, in terms of the trial of various al-Jazeera and other 
journalists, and tried to have a conversation with then-General 
Sisi, who was not yet President, but just about how difficult 
it is for the United States to understand trials and 
prosecutions and imprisonments of journalists. Our culture just 
makes that so hard to give any deference to. Talk a little bit 
about how that has gone. And is it trending the right way or 
the wrong way? Press freedom.
    Ms. Margon. Do you want to start on that or----
    Dr. Lagon. Sure.
    Ms. Margon. Okay.
    Dr. Lagon. The wrong way. [Laughter.]
    And Freedom House is really concerned about the direction 
things are going, under al-Sisi. And, frankly, concerned about 
the continuation of U.S. military assistance and general 
assistance at the level it is at. Military authorities have 
shut down virtually all opposition media outlets following the 
coup. And it was a coup. And it leaves state media and those 
private outlets that are openly pro-military and pro-al-Sisi 
the ones that have a voice. So, it--you know, and part of our 
research is focused on freedom of the press. We have a 
dedicated report on that we have put out for 35 years. The 
situation--the arrow is going down.
    Ms. Margon. I would echo that. I think what we are seeing 
is a crackdown, not just against Islamic extremists and the 
Muslim Brotherhood under the guise of stability and security, 
but a crackdown against activists, independent thinkers, 
dissent, and independent media in a way that is actually 
reversing what the stated goals of the Egyptian president are. 
We are seeing a rise in attacks in Egypt and a rise in 
repression. The two parallel tracks are not going to get that 
country where it needs to be. And I would say that the 
administration has not taken a strong enough stance on that 
government. They may be a purported important partner in the 
fight against ISIS, but pushing issues of independent press, 
activists, and independent thought to the side, and increasing 
their repressive legislation, including laws that crack down 
very severely on NGOs and independent groups, is an 
unacceptable way forward.
    Senator Kaine. Thank you, to both of you.
    I will hand it back to you, Senator Cardin.
    Senator Cardin [presiding]. Sure.
    Well, Senator Kaine, thank you for the question on Egypt. 
There is a scheduled, not yet date-specific, fall meeting, at 
the ministerial level, with Egypt, and we are weighing in that 
human rights be part of that strategic dialogue. So, I 
appreciate you raising the issue, and the response, because 
there is great concern as to the direction of Egypt.
    Let me thank both of you for your incredible work and 
support on bringing together workable strategies to advance 
human rights globally. And I thank you for your testimony.
    Let me just highlight an opportunity we have in regards to 
using a tool like the TIP report, but instead for corruption. 
This committee, in its work on the State Department 
Authorization Act, moved in the direction to require the State 
Department to assess the status of human rights and 
anticorruption issues in every country in the world, similar to 
what we do in the Trafficking in Persons report. It is a first 
step. The Trafficking in Persons report is well established, it 
has consequences depending which tier you are on. We are not 
there yet on corruption, and we need to work on that.
    So, I would just urge you all to work with us as we try to 
put greater emphasis in all of our foreign policy deliberations 
on the anticorruption agenda. We have done that with 
trafficking. We truly have. Witness the debate you had with 
Senator Menendez on whether we can move forward with the Trans-
Pacific Partnership with Malaysia. There should be 
consequences, and there should be consequences for countries 
that do not meet established standards for dealing with 
corruption and are not taking steps to counter that. And we 
should be able to develop that while working with groups such 
as Human Rights Watch and Freedom House. So, I just urge you to 
deal with that.
    Let me ask you one question, if I might, about China. 
China's in the news a great deal. They are certainly watching 
what we are doing on the Trans-Pacific Partnership. The 
maritime security issues are of great concern. They just 
participated with us on the Iranian negotiations. And we have 
regular strategic and economic dialogue with China where human 
rights concerns are raised. In fact, the seventh dialogue was 
just concluded. And, at just about the same time, the Chinese 
authorities detained and interrogated over 100 human rights 
lawyers and activists all across China. And the more and more 
reports that I am getting, it looks like China, that everyone 
says is on this great path of liberalization and great path of 
human rights, does not look like they are making too much 
progress today.
    Do we need to be more aggressive? Are the tools adequate 
for us to help the advancement of human rights in China? What 
else would you suggest?
    Dr. Lagon. You first.
    Ms. Margon. Thanks, Mark.
    Thank you, Senator, for that question. We would agree with 
you, China is not moving in the right direction, in terms of 
liberalization on human rights issues and the rule of law. In 
fact, it is very concerning to see where China is going.
    We understand that human rights issues may have been raised 
at the recent dialogue. Assistant Secretary Malinowski said as 
much. But, the problem is, what we are seeing is that it is 
raised, there is no followup, and it is often not raised 
publicly. So, I have a couple of suggestions on China, but I 
also think that, if really implemented, a tool like the Global 
Magnitsky bill could be a very effective tool. And ostensibly, 
the Chinese President should welcome a tool like that, given 
his commitment to root out corruption, as well.
    Briefly, I think the three things that would be helpful to 
see more of from the administration on China would include 
speaking publicly about the individual cases of detained and 
attacked activists at the very highest level and across the 
entire U.S. Government. This happens sometimes, but not 
consistently. And, from what we can tell, it is what most 
effectively challenges, and likely changes, the calculations of 
senior officials. It does not cost anything and it would go a 
long way. We hear it, time and time again, from activists and 
the families of activists and victims.
    The second is to visibly reach out to people outside the 
government. I think it was Senator Menendez who mentioned the 
importance of U.S. Government officials seeing civil society 
and others. And when the United States goes to China, this is 
particularly important as a show of solidarity. Obviously, 
their security would need to be checked to make sure it would 
not put them in any danger. But, that would also be very 
important to do regularly.
    And then, finally, given the horrific developments over the 
last week or so, we would also suggest that the human rights 
and counterterrorism dialogues--I think they are expected in 
August--be postponed.
    So, I will stop there. Thanks.
    Dr. Lagon. Well, I think, you know, the detention of 100 
human rights leaders and activists shows exactly how much fear 
the Chinese leadership has and--when it is about to enter a 
dialogue--you know, strategic economic dialogue with the United 
States--none, and that we really do need to amp up that 
emphasis on human rights. And it does need to be public.
    We, at Freedom House, put out a report, at the beginning of 
the year, called the ``Politburo's Predicament,'' that looks at 
the style and content of the leadership under Xi Jinping. It is 
getting markedly worse, let us be clear. There is more 
centralized power in an individual's hands with Xi than anyone 
since Deng. And we look at 17 different groups, sectors, faith 
groups in Chinese society, and a good number of those are 
facing marked increased pressure.
    Anticorruption campaigns, which are seen as the sort of 
centerpiece of Xi's rule, are perfect manifestation of ``rule 
by law'' rather than ``rule of law.'' Who is getting targeted 
for corruption? Those people who are convenient to Xi and his 
inner circle to eliminate. And people who are useful to him are 
being allowed to live high on the hog on the corruption they 
have. This is a perfect place to use a Global Magnitsky 
sanctions bill. It is sort of accepted, among legislators, 
executive branch officials, business leaders, that we will 
never have comprehensive sanctions on China. But, this would be 
a great way to highlight corruption and those who are 
responsible for the most heinous human rights abuses, and put 
the Chinese leadership in an even more precarious position in 
its high-wire act, as society would see what it is actually 
doing to them, in repressing and robbing them.
    Senator Cardin. Well, let me thank you both for your 
testimonies and for those suggestions. And I know our committee 
is going to continue to be very aggressive.
    The record will remain open until the close of business on 
Monday.
    And, with that, the committee will stand adjourned. Thank 
you both.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Dr. Mark Lagon to Questions 
                    Submitted by Senator Bob Corker

                            global magnitsky
    Question. What would the policy and practical implications of a 
mandatory Global Magnitsky sanctions regime be?

    Answer. The President would have an effective, targeted foreign 
policy tool at his disposal to constrain human rights abusers and 
grossly corrupt officials without the need to implement broad-based 
sanctions that can be difficult to pass and can at times 
unintentionally harm innocent civilians. We know these types of 
targeted sanctions work--whereby Russia and Belarus are good examples--
and are an effective method of protecting and promoting human rights by 
holding those most responsible to account.
                           western hemisphere
    Question. Colombia: Colombia is our ally and has made real progress 
on human rights. A recent detailed report states that between 2002 and 
2008, army brigades across Colombia routinely executed civilians under 
pressure from superiors to show ``positive'' results and boost body 
counts in their war against guerrillas. While rank and file have been 
prosecuted and convicted, the report asserts that senior officers knew 
about and condoned the killings through a system of monetary and other 
compensation to soldiers for verified killings. The report says that no 
senior officer has ever been investigated.

  <diamond> What can you tell the committee about this matter?

    Answer. In Colombia, preserving rule of law and prosecuting crimes 
remains a serious challenge, and the individuals responsible for these 
killings should be held accountable. It is fairly widely known that 
members of both the military and police carried out killings of 
civilians with near-complete impunity, rationalized by some authorities 
due to similar actions taken by FARC and by paramilitary groups. The 
Colombian Government must dedicate more resources to its victims unit 
to make the Victims Law and its accompanying commitments a reality. 
This effort should include reparations for victims of attacks carried 
out not only by nonstate actors but also by state officials. The 
government must also dedicate more resources to the public prosecutor's 
office at the federal and state levels so that past and current crimes 
can be seriously investigated and prosecuted.
                                  asia
    Question. Vietnam: I remain troubled by reports that the 
administration may consider fully lifting the lethal military equipment 
sales ban, amidst intense lobbying on the part of Vietnam, including 
during the General Secretary's recent visit.

  <diamond> Can you comment on these reports?

    Answer. There is a renewed effort to fully lift the ban on arms 
sales to Vietnam after Secretary Kerry and Secretary Carter visited the 
country to meet with government officials this summer. The 
administration partially lifted a 40-year ban on arm sales last year as 
a way to counteract China's expansionist efforts in the South China 
Sea. Freedom House is second to none in its concern about China's human 
rights abuses within its borders and the pernicious model of illiberal 
rule it offers regionally and globally. Moreover, U.S. efforts with 
partners to stem China's aggressive moves beyond its borders in the 
South China Sea are very sound. Yet fully lifting the ban on arms sales 
sends the wrong message to the Communist Party of Vietnam: that the 
U.S. is willing to overlook the increasing repression under a single 
party authoritarian regime.

    Question. What are the specific benchmarks Vietnam must achieve in 
order for the administration to fully lift the lethal military 
equipment sales ban?

    Answer. Both Secretary Kerry and Secretary Carter noted that 
progress on human rights issues is important to expanding the military 
partnership between the two countries. State Department officials told 
reporters during Secretary Kerry's recent trip that the ban would not 
be eased further without progress on human rights. Some steps have been 
made over the past year, but there still is significant room for 
improvement. The United States should push for reversal of the 
increased crackdown on freedom of expression and Internet, for lifting 
the restrictions on religious freedom, and for the release of all 
prisoners of conscience before agreeing to sell arms to Vietnam.
    Vietnam is rated ``Not Free'' in Freedom in the World 2015.
                                 ______
                                 

  Responses of Assistant Secretary Tomasz P. Malinowski to Questions 
                    Submitted by Senator Bob Corker

    Question. What would the policy and practical implications of a 
mandatory Global Magnitsky sanctions regime be?

    Answer. First, I want to emphasize that we share the goals behind 
the Global Magnitsky legislation. Combating corruption and human rights 
violations worldwide are key priorities for the administration.
    With regard to policy implications, we believe the objectives of 
the visa provisions included in the Global Magnitsky legislation are 
already accomplished through other authorities. The administration 
enforces a global policy to deny entry to those who commit serious 
human rights violations through enforcement of the 2011 Presidential 
Proclamation 8697, and is working to implement section 7031(c) of the 
FY 2015 Department of State, Foreign Operations, and Related Programs 
Appropriations Act, which renders ineligible those officials involved 
in gross violations of human rights. Additionally, the Immigration and 
Nationality Act (INA) already includes ineligibilities that apply to 
those who have engaged in torture, extrajudicial killings, genocide, 
particularly severe violations of religious freedom, and the use or 
recruitment of child soldiers, among others.
    The Global Magnitsky legislation also makes public corruption an 
independent ground for ineligibility, which means it also duplicates 
existing sanctions under the 2004 President Proclamation 7750 and the 
anticorruption provisions of section 7031(c) of the FY 2015 Department 
of State, Foreign Operations, and Related Programs Appropriations Act, 
each of which is being actively utilized by the Department.
    On economic sanctions, the International Emergency Economic Powers 
Act (IEEPA) provides broad authority to impose sanctions in situations 
where the President has declared a national emergency due to an unusual 
and extraordinary threat to the national security, foreign policy, or 
economy of the United States.
    The reporting requirements in section (4) of the Global Magnitsky 
legislation could detract from the multilateral frameworks we have set 
up around the world to carry forward our overall international 
anticorruption policy, including those multilateral frameworks through 
which we are seeking to convince other governments to adopt and apply 
similar visa restrictions. This successful policy has moved us over the 
past 15 years from unilateral accusations to meaningful peer review 
processes and increasing cooperation and coordination on law 
enforcement, asset recovery, and visa sanctions action.
    In terms of practical implications, the mandatory Global Magnitsky 
bill does not provide additional resources for implementation. We know 
from the enforcement of similar human rights grounds that the 
investigations and examinations of credibility required under such an 
act would be fact-intensive and take time to develop. Many of our 
embassies are small, with only one or two reporting officers. Their 
ability to advance U.S. Government priorities would be significantly 
reduced if they were required to research, investigate, analyze, and 
report on cases that may not meet significant thresholds.
    In terms of domestic staffing resources, based on the 2012 Senate 
version of the bill, the Bureau of Democracy, Human Rights, and Labor 
alone previously estimated it would need seven additional full-time 
equivalent (FTE) employees (one FTE per region and one supervisor) to 
cover the additional workload related to a mandatory human rights 
prong. When last reviewed in March 2012, the cost of seven FTE 
positions at FY 2016 levels was $1,629,000 per fiscal year. While the 
Bureau for International Narcotics and Law Enforcement Affairs has not 
estimated the staffing required to cover the additional workload 
related to the bill's corruption prong, it is likely to be substantial. 
Based on the additional workload, the Department anticipates that it 
would need significant additional staffing increases across the 
Department, including in regional bureaus, the Bureau of Consular 
Affairs, the Bureau for International Narcotics and Law Enforcement 
Affairs, and the Office of the Legal Advisor and other functional 
bureaus to meet the requirements of the bill adequately.
    The State Department notes that the Senate version provides 
flexibility for targeted implementation and more importantly that it 
provides a permissive authority to apply sanctions. This approach would 
significantly ameliorate the resource and staffing implications 
associated with a mandatory sanctions regime. We further note that the 
House version does not incorporate this needed provision. Were the 
House bill to be enacted, the impacts on resources and staffing within 
the Department would be far greater as set forth above.

    Question. Colombia.--Colombia is our ally and has made real 
progress on human rights. A recent detailed report states that between 
2002 and 2008, army brigades across Colombia routinely executed 
civilians under pressure from superiors to show ``positive'' results 
and boost body counts in their war against guerrillas. While rank and 
file have been prosecuted and convicted, the report asserts that senior 
officers knew about and condoned the killings through a system of 
monetary and other compensation to soldiers for verified killings. The 
report says that no senior officer has ever been investigated.

  <diamond> What can you tell the committee about this matter?

    Answer. The Department is aware of the Human Rights Watch Report 
titled ``On Their Watch: Evidence of Senior Army Officers' 
Responsibility for False Positive Killings in Colombia,'' released in 
June 2015. Senior officials from our Embassy in Colombia and in the 
Department met with Human Rights Watch to discuss these issues. I 
personally met with Human Rights Watch Americas Director Jose Miguel 
Vivanco on July 10 to discuss the report, and the Department has asked 
both the Colombian authorities and Human Rights Watch for additional 
information.
    The report states Colombian prosecutors are investigating more than 
3,000 alleged ``false positives'' extra judicial killings by military 
personnel. Upward of 800 army members have been convicted for 
extrajudicial killings committed between 2002 and 2008, most of them 
low ranking soldiers. No officers at the brigade-command level or above 
have been convicted for extrajudicial killings; Human Rights Watch 
notes that 16 active and retired army generals are under investigation. 
The Colombian Attorney General's Office announced on April 13, 2015, it 
would be investigating 22 active and retired generals.
    In early June 2015, judicial hearings began against five colonels 
from the Pedro Nel Ospina Battalion of the 4th Brigade, including 
Colonels Edgar Emilio Avila Doria, Colonel Jose Zanguna Duarte, Colonel 
Diega Padilla, Colonel Raul Huertas Ceballos, and Colonel Carlos 
Cadena, for their alleged involvement with more than 70 ``false 
positives'' killings. We will follow progress in these investigations 
very closely.
    We take all allegations of human rights violations in Colombia 
seriously, and will continue to work to support all efforts to bring 
justice for victims and perpetrators alike.

    Question. I remain troubled by reports that the administration may 
consider fully lifting the lethal military equipment sales ban, amidst 
intense lobbying on the part of Vietnam, including during the General 
Secretary's recent visit. Can you comment on these reports? What are 
the specific benchmarks Vietnam must achieve in order for the 
administration to fully lift the lethal military equipment sales ban?

    Answer. We have consistently communicated to Vietnamese officials, 
including during General Secretary Trong's visit, that further progress 
on human rights is integral to our bilateral relationship and is 
necessary for a further deepening of bilateral ties, including in 
security cooperation. Further progress on human rights would be a key 
factor for the United States to consider when determining whether a 
full lifting of the ban on the transfer of lethal defense articles is 
appropriate.
    Vietnam has taken positive steps on human rights, but there remains 
much room for improvement. During the Human Rights Dialogue, I urged 
the Vietnamese Government to make progress in three key areas: a more 
systematic release of political prisoners, including several of the 
priority cases such as Ta Phong Tan that we discussed with them during 
the Dialogue; a moratorium on new arrests and detentions of activists, 
bloggers, and others for peacefully expressing their views; and 
revising the disappointing first drafts of the Penal Code revisions and 
the Law on Religion. Our message is clear: demonstrable progress on 
human rights is critical to the advancement of U.S.-Vietnam relations 
across the board, including in the security sphere.
    Ahead of the modification to our policy last fall to permit the 
transfer of maritime security-related defense articles to Vietnam, the 
State Department and Defense Department consulted with Congress. If we 
were to consider further policy changes, we would again consult with 
Congress before making any decision.
                                 ______
                                 

  Responses of Assistant Secretary Tomasz P. Malinowski to Questions 
                     Submitted by Senator Rand Paul

    Question. With President Obama's plan to lift sanctions that are 
part of Executive Order 13628 related to the Iran Threat Reduction and 
Syria Human Rights Act of 2012, what is the State Department's leverage 
to influence the horrible human rights record in Iran?

    Answer. Our commitments under the Joint Comprehensive Plan of 
Action (JCPOA) will not result in the United States Government 
terminating Sections 2 or 3 of Executive Order 13628, which are the 
sections that impose sanctions related to human rights abuses and 
freedom of expression consistent with the Comprehensive Iran Sanctions, 
Accountability, and Divestment Act of 2010. Under the JCPOA, the United 
States commits to terminate select provisions of Executive Order 13628 
that relate to nuclear-related sanctions--specifically, Sections 5-7 
and 15--on Implementation Day, i.e., after Iran has completed its key 
nuclear-related commitments. These sections provide for technical fixes 
or amendments to other sanctions pertaining to Iran's petroleum sector 
that will be relieved under the deal and are unrelated to sanctions 
imposed in connection with Iran's human rights abuses.
    We have enforced, and will continue to enforce, existing human 
rights sanctions. Since 2010, the Treasury Department, in consultation 
with the State Department, has sanctioned 12 Iranian entities and six 
Iranian individuals under Executive Order 13628 for restricting the 
freedoms of expression or peaceful assembly of Iranians. These 
designations will not go away under the JCPOA and neither will the 
designations of five Iranian entities and 14 Iranian individuals under 
Executive Order 13553 for their involvement or complicity in serious 
human rights abuses. Lastly, the four entities we have targeted 
pursuant to Executive Order 13606 for their provision of information 
technology that could be used by the Government of Iran to commit 
serious human rights abuses will remain designated. Iranian entities 
sanctioned pursuant to various human rights authorities include the 
Islamic Revolutionary Guards Corps (IRGC), the Basij, the Ministry of 
Intelligence and Security (MOIS), the Ministry of Culture and Islamic 
Guidance, the Committee to Determine Instances of Criminal Content, and 
the Iranian Cyber Police. We have also sanctioned top officials within 
some of these organizations.
    We will continue to press Iran to end its mistreatment of its 
citizens. We will continue to cosponsor and lobby for the U.N. General 
Assembly's annual resolution expressing deep concern at human rights 
violations in Iran and to lead lobbying efforts to maintain the mandate 
of the Special Rapporteur on human rights in Iran--a mandate we were 
instrumental in establishing through our leadership at the U.N. Human 
Rights Council. We will also continue to document reports of Iran's 
human rights violations and abuses in our annual Human Rights and 
International Religious Freedom Reports. And we will continue to raise 
our voice in support of the Iranian people and their desire for greater 
respect for human rights and the rule of law.

    Question. Each year, often without seeing improvements, the U.S. 
State Department and the U.S. Agency for International Development give 
millions of U.S. taxpayer dollars to countries that have human rights 
and corruption records that are considered the worst of the worst. Why 
does the Department continue to aid and enable these regimes?

    Answer. U.S. assistance supports programs that are in the U.S. 
national interest, spanning a range of issues from fighting terrorism 
to humanitarian assistance to antipoverty and health promotion 
programs. It also includes programs and policies that strengthen good 
governance, protect human rights, strengthen the rule of law, and 
combat corruption. Sometimes, in order to protect or advance our 
national interests, we must work with governments that have poor human 
rights records. Congress regularly makes funds available for assistance 
to these types of governments.
    We also regularly withhold assistance from governments that abuse 
human rights. We often do so as a matter of policy. We also do so as a 
matter of law, specifically the State Leahy law (Section 620M of the 
Foreign Assistance Act of 1961, as amended), which provides that no 
assistance shall be furnished to any unit of the security forces of a 
foreign country if the Secretary of State has credible information that 
such unit has committed a gross violation of human rights. In every 
case, when an individual security force member is nominated for 
assistance, the Department vets that individual as well as his or her 
unit. In cases where an entire unit is designated to receive 
assistance, the Department vets the unit and the commander. All vetting 
results from U.S. embassies are evaluated by vetters within the Bureau 
of Democracy, Human Rights and Labor (DRL), where we vigorously 
implement the State Leahy law and evaluate the human rights records of 
the unit and individuals against a full spectrum of open source and 
classified records.
    In many cases where a country has a problematic human rights 
record, U.S. assistance in those countries may be channeled through 
nongovernmental organizations (NGOs), including those that fight for 
greater respect for human rights and democratic principles. DRL focuses 
programmatic activities in countries where governments commit egregious 
human rights violations, are undemocratic or in transition, and where 
democracy and human rights advocates are under pressure. More than 90 
percent of all DRL programs operate in restrictive or challenging 
environments. DRL grants and cooperative agreements are focused on 
supporting civil society organizations that work on the very problems 
you identified. DRL programming is intended to uphold democratic 
principles, promote human rights and fundamental freedoms, prevent 
atrocities, combat violent extremism, address gender-based violence, 
strengthen rule of law, increase access to justice and accountability, 
and target impunity and corruption. America is more secure in a world 
where governments protect the human rights and fundamental freedoms of 
all individuals.
                                 ______
                                 

  Responses of Assistant Secretary Tomasz P. Malinowski to Questions 
                  Submitted by Senator Robert Menendez

    Question. In an era marked by increasing global economic 
integration characterized by the negotiation of trade agreements, such 
as the TPP, in the pipeline, and preference programs that according to 
the administration have a new emphasis on the observance of 
international labor rights and standards, I understand that for State 
Department's Bureau of Democracy, Human Rights and Labor (DRL), labor 
funded programs have remained stagnant and represent only about 5 
percent of its total Human Rights and Democracy Fund budget.

  <diamond> Why does that number remain so low? Will we not need more 
        resources to match the rhetoric of labor rights in our 
        negotiating objectives?

    Answer. DRL has supported labor programs since it began its 
democracy and human rights programs in 1998 and we agree that there is 
a need to continue emphasizing international labor rights and 
standards. DRL does so by dedicating at least 5 percent of Democracy 
Fund/Human Rights and Democracy Funds (DF/HRDF) for labor programs. We 
also incorporate labor projects within global rapid response mechanisms 
as well as regional or country-specific portfolios also funded with DF/
HRDF, and manage, on behalf of other Department bureaus, Economic 
Support Funds (ESF) transferred to DRL. Due to these other funding 
streams, the overall amount DRL program to advance labor rights is de 
facto greater than 5 percent. Over the past 5 years, we have allocated 
nearly $34 million for labor rights.
    DRL dedicates at least 5 percent of our DF/HRDF budget even in the 
constrained budget environment in which we are operating, and as 
mandates for DF/HRDF have increased substantially without corresponding 
increases in funding. The amount of funding we allocate for labor 
rights is greater than our entire regional democracy-promotion 
portfolios for Europe and Eurasia, Middle East and North Africa, and 
South and Central Asia.

    Question. As you think about the regional trade and economic 
challenges and opportunities, are there areas--at State, at Treasury, 
at Commerce, at USTR, at USAID--where do you think additional resources 
are needed?

    Answer. Currently, U.S. foreign assistance programs support 
improving trade and investment climates in developing countries as a 
means to promote sustainable economic growth in countries that have the 
political will to carry out the needed reforms. Opening up new markets 
also supports U.S. jobs, eliminates barriers in foreign markets and 
establishes rules to stop unfair trade. President Obama's FY 2016 
Request includes support for programs to be carried out by State and 
USAID that include technical assistance and training to build trade 
capacity, the establishment of bilateral and multilateral trade policy, 
and the negotiation of new trade agreements required to overcome 
regional trade barriers and economic challenges in developing nations. 
State and USAID work very closely together to identify and request the 
resources needed to achieve the U.S. Government's foreign policy 
objectives and development goals for trade. State and USAID collaborate 
with the interagency (i.e., Treasury, Commerce, and USTR) on trade 
programming and transfer funds to these other agencies where they have 
a comparative advantage to provide assistance.

    Question. Mr. Assistant Secretary, in March, you led the first 
human rights discussion with the Castro regime on human rights. Would 
you please share with us your impression of those talks? Also, as there 
have now been more than 2,822 arbitrary, politically motivated arrests 
in Cuba during 2015, could you please provide impression of whether 
these talks with the Castro regime will lead to greater protections for 
human rights in Cuba?

    Answer. On March 31, I led the planning discussion with a 13-member 
Cuban delegation largely comprised of officials from the Ministry of 
Exterior Relations' Directorate for Multilateral Affairs and 
International Law. The atmosphere of the meeting was professional and 
there was broad agreement on methodology for a substantive dialogue. We 
agreed that the basis for future discussions would be compliance with 
international human rights standards, including the Universal 
Declaration of Human Rights, which will help us push back against the 
usual Cuban argument that Cuba has its own definition of human rights. 
We also agreed that each side would be open to discussing any topic. 
The Cuban side wished to leave the timing and location of the first 
substantive round of dialogue for future decision through diplomatic 
channels. We have proposed various dates, and we are awaiting the Cuban 
Government's response.
    It is striking that the Cuban Government is so threatened by the 
peaceful activities of civil society activists that it continues to 
engage in the arbitrary, short-term detentions you have mentioned. As 
we have said, we did not expect the Cuban Government to immediately 
change its behavior toward its own people simply because it had 
reestablished diplomatic relations with the United States, and I would 
not expect them to change their behavior just because we have human 
rights discussions. But reestablishment of diplomatic relations and 
opening the Embassy in Havana not only allows us to better advocate for 
respect for universal human rights and fundamental freedoms it has 
changed the expectations of the Cuban people in ways the Cuban 
Government cannot possibly meet unless it changes its policies. 
Secretary Kerry and I were able to meet with several activists and 
other representatives of Cuban society during the Secretary's visit to 
Havana on August 14, and it is clear that they are thinking through how 
they can take advantage of these new circumstances to press for real 
change. Change in Cuba will come from the Cuban people, and we will use 
our continued engagement to support their efforts to promote respect 
for human rights and to advance democratic reforms.

    Question. The State Department's Trafficking in Persons (TIP) 
Reports normally cover the reporting period from April 1 to March 31 in 
a given year. The 2015 TIP Report, which still has not yet been 
released, will have the latest release date ever for a TIP Report.

  <diamond> In prior TIP reports, have events or actions taken in June 
        or July of a year ever before been used to affect a country's 
        tier ranking?

    Answer. The 2015 TIP Report, which was released on July 27, covers 
government antitrafficking efforts through March 31, 2015, with a few 
exceptions for notable developments that occurred in early April. This 
reporting period is consistent with those for past TIP Reports, which 
have--on limited occasions--included developments after March 31.

    Question. My amendment prohibiting fast track authority for Tier 3 
human trafficking countries was recently signed into law by President 
Obama as part of the Trade Promotion Authority legislation. In your 
view, is that kind of sanction helpful in combating human trafficking?

    Answer. Following the internationally agreed tenets of the U.N. 
Palermo Protocol and the Trafficking Victims Protection Act (TVPA), the 
U.S. Government's efforts to combat trafficking in persons concentrate 
on the 3P approach: prosecution of human traffickers, protection of the 
victims of sex and labor trafficking, and prevention of the crime. The 
Office to Monitor and Combat Trafficking in Persons engages in year-
round diplomacy, working closely with foreign governments to encourage 
and assist their efforts to meet the minimum standards to combat 
trafficking in persons established in the TVPA.
    The Department welcomes dialogue and continued partnership with 
Congress on ways to better advance efforts to combat human trafficking. 
We will stay apprised of developments regarding the amendment and look 
forward to discussing this further with you.

    Question. John Sifton, Asia advocacy director at Human Rights 
Watch, recently stated that, with regards to human trafficking, 
``Malaysia has done very little to combat this scourge,'' and that 
``this is not a gray area.'' Do you agree with this analysis? Why or 
why not?

    Answer. The Department remains deeply concerned about human 
trafficking in Malaysia and continues to urge Malaysian Government 
officials to take bold steps to combat trafficking. Malaysia's Tier 2 
Watch List ranking clearly indicates the country does not meet the 
minimum standards established in the TVPA and there is much room for 
improvement in the government's antitrafficking efforts. However, the 
Government of Malaysia made significant efforts to comply with the 
minimum standards for the elimination of trafficking.
    In 2014 and early 2015, government officials consulted with civil 
society to draft amendments to Malaysia's antitrafficking law to 
address the country's flawed victim protection regime, which were 
approved by the Cabinet. If implemented, these amendments would address 
a number of the recommendations in the TIP Report over the past several 
years--including allowing trafficking victims to move freely and work 
outside of government facilities and NGOs to run shelters for victims. 
We will continue to encourage the government to implement the 
amendments to the antitrafficking law and issue associated regulations 
in consultation with NGO partners and consistent with international 
standards in the Palermo Protocol. We will closely monitor the 
implementation and effectiveness of these amendments as we evaluate 
Malaysia's efforts.
    Malaysian authorities also increased the number of trafficking 
investigations and prosecutions compared to 2013, adopted a pilot 
project to enable a limited number of trafficking victims to leave 
government facilities in order to work, trained government officials on 
human trafficking, and issued public service announcements highlighting 
the risks of human trafficking. Going forward, we will continue to 
press the government to increase its law enforcement efforts to convict 
traffickers.
                                 ______
                                 

              Letter Submitted by Senator Robert Menendez
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

              Article Submitted by Senator Robert Menendez

                     [From The Hill, July 14, 2015]

         Undermining the State Department's Trafficking Report

                          By David Abremowitz
    Recent press reports suggest that the State Department will 
recommend that Secretary John Kerry take a shameless and unprincipled 
stand in this year's Trafficking in Persons Report (TIP Report) by 
concluding that the government of Malaysia is making significant 
efforts to combat human trafficking in its country. Anti-trafficking 
groups, including the coalition I work with, are urging Kerry to reject 
this unnecessary capitulation to the government of Malaysia and U.S. 
government regional and trade experts.
    Malaysia has a serious human trafficking problem, which is why last 
year the State Department downgraded Malaysia to a Tier 3 country in 
the TIP Report, a level that includes the worst human trafficking 
offenders in the world. Malaysia--where we see forced labor in 
agriculture, construction, electronics and textile industries, as well 
as in domestic service in homes and women coerced into prostitution--
deserves to be among them. Steps that might be considered progress have 
only come in recent days, months after the closure of this year's 
reporting period (April 1, 2014 to March 31, 2015), and do not yet 
demonstrate real resolve by the Malaysian government.
    The basis for this cynical and manipulative recommendation is 
simple: The State Department is trying to ensure that, come what may, 
Malaysia can stay part of the Trans-Pacific Partnership (TPP), a key 
trade agreement that is part of the White House's legacy in the pivot 
to Asia. Recent fast-track trade legislation signed by the president 
provided that no trade agreement that includes a Tier 3 country can get 
fast-track consideration, effectively killing Malaysia's participation 
in it. It appears that State Department regional bureaus and trade 
experts are overruling the trafficking concerns to make sure this 
doesn't happen.
    These forces seem to be taking advantage of the absence of an 
Ambassador-at-Large for Trafficking in Persons, a position that has 
been vacant for more than nine months. This vacancy leaves no dedicated 
senior official to fight the battles on behalf of the trafficking 
office--and more importantly, on behalf of victims and survivors.
    Supporters for a Malaysia upgrade point to provisions in a recent 
Malaysian law. These provisions, for example, permit the government to 
provide assistance to trafficking victims, but unfortunately they leave 
it to the discretion of Malaysian authorities to actually do so, and 
there is no guarantee of funds to make such a program a reality. This 
is of particular concern because in Malaysia, as with many countries, 
the promise of already existing laws that could make a real impact on 
human trafficking falters because of poor or nonexistent 
implementation. What's more, some press reports suggest that the State 
Department will discount the mass graves on the Malaysian border 
because they were discovered after the reporting period, but may now 
count these even more recent changes because it better serves their 
interest.
    Unfortunately, prioritizing trade over trafficking will undermine 
the integrity of the TIP Report and will make it more difficult to free 
the estimated 21 million people who are suffering from human 
trafficking and modern slavery. And it may undermine the U.S. ability 
to ensure that Malaysia follows through with its commitments.
    What is particularly bewildering about the State Department's 
action is that it is wholly unnecessary. Several human rights groups 
that work to end modern slavery worked with the administration to 
create an exception to allow Malaysia to stay in the TPP, provided the 
country takes concrete actions to implement the principal 
recommendations in the TIP Report. This exception will likely be 
adopted before the end of the month, giving flexibility to the 
president and providing additional time for Malaysia to follow through 
with its commitment to, for example, actually fund new programs for 
victims under the new law and to pursue traffickers who confiscate 
documents.
    Kerry has a decision to make: undermine global U.S. leadership 
efforts to combat human trafficking and let Malaysia off the hook, or 
stand up for not only thousands of victims of human trafficking in 
Malaysia but millions of people who suffer from modern slavery around 
the world. The former unprincipled capitulation will tarnish this 
administration's many efforts to combat human trafficking around the 
world, as well as Kerry's own reputation as a champion In the fight 
against human trafficking. The latter courageous truth-telling will 
confirm that the U.S. continues to be a champion in freeing those who 
are exploited by the more powerful. The choice is simple, Mr. 
Secretary.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
